<html>
<title> - TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  TRANSPORTATION, HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, APRIL 5, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:00 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Susan Collins (chairman) 
presiding.
    Present: Senators Collins, Capito, Hoeven, Reed, Murphy, 
and Manchin.

                      U.S. MARITIME ADMINISTRATION

STATEMENT OF HON. JOEL SZABAT, EXECUTIVE DIRECTOR


             opening statement of senator susan m. collins


    Senator Collins. The committee will come to order.
    Good morning. This week marks the beginning of a month that 
is devoted to raising awareness of sexual assault and sexual 
harassment, so our hearing is particularly well-timed.
    I do want to explain that there is an exceptionally high 
number of hearings going on right now. Otherwise, I am certain, 
from conversations that I have had with committee members, that 
our attendance would be far higher because there is widespread 
concern about this issue. In addition, as you may have read, 
there is a little bit going on, the Senate floor right now, and 
that too is drawing members away.
    Today, our subcommittee is holding this hearing on the 
United States Merchant Marine Academy's response to reports of 
sexual assault and sexual harassment, an unacceptable problem 
for the academy that has existed for far too long. As a result, 
the academy's accreditation status is in jeopardy.
    The U.S. Merchant Marine Academy is a critical institution 
dedicated to ensuring that our country educates and retains 
credentialed officers in our armed services and merchant 
mariners for the maritime industry. Graduates of the academy 
are essential for our Nation's defense and, in times of war, 
are crucial to moving our troops, supplies, and equipment.
    Unfortunately, just like many other universities, service 
academies, and even, we recently learned, the U.S. gymnastics 
team, the U.S. Merchant Marine Academy (USMMA) continues to 
face challenges in addressing incidents of sexual assault and 
sexual harassment both on its campus as well as during the Sea 
Year when midshipmen are sent to train on U.S.-flagged 
commercial vessels.
    When parents send their children off to college, the last 
thing that they expect is for them to endure repugnant and at 
times criminal behavior. The last thing they expect is for 
their children to find themselves in a situation where they are 
either unable or unwilling to seek help or report their 
experience.
    Let me be clear: Sexual assault is a heinous crime that 
must be eradicated in every corner of our society, but it is 
particularly important since when parents entrust their 
children to our Nation's service academies, we bear the 
responsibility to ensure the safety of the young people 
enrolled.
    According to the most recent anonymous survey, 4 percent of 
midshipmen experienced unwanted sexual contact in the last 
academic year, but for female midshipmen, this number was 
nearly 20 percent. When you add in sexual harassment, the 
number soars to 60 percent.
    If you look at just sexual contact, unwanted sexual 
contact, this roughly translates to 27 of the 150 female 
midshipmen at the academy who experienced inappropriate sexual 
contact. Another six incidents involved male cadets, for a 
total of 33 incidents.
    And I would note that some 87 percent of cadets took this 
survey for the 2015-2016 year, so this is not a case where we 
had a survey to which very few midshipmen responded.
    Even more alarming to me is the fact that only 4 of these 
33 midshipmen felt comfortable enough to file a restricted 
report of their experience. That allows them to receive 
appropriate medical, legal, and counseling services. It is 
appalling that not 1 of the 33 felt safe enough to make an 
unrestricted report that would allow law enforcement to 
investigate. That is simply unacceptable.
    For too long, the academy passively accepted a culture 
where midshipmen who experienced sexual assault or harassment 
are either too afraid of reporting incidents or are fearful of 
retribution from their peers. A recent report comparing our 
Nation's five service academies showed that the USMMA had the 
highest rate of sexual assaults based on anonymous survey data 
and also the lowest rate of formal reports.
    The crisis at the academy was highlighted in June 2016 when 
former Transportation Secretary Foxx temporarily suspended the 
Sea Year program until he could guarantee the safety of all 
midshipmen training on commercial vessels. During the 
suspension, the department worked with the maritime industry 
and labor unions to develop a course of action to address 
sexual assault and sexual harassment, and assigned midshipmen 
to Federal vessels and provided other training opportunities to 
prevent delays in the graduation of any student.
    Just last month, the new Transportation Secretary, Elaine 
Chao, resumed the Sea Year program with specific eligibility 
criteria set by the Shipboard Climate Compliance Team. To date, 
five companies that have met these requirements are able to 
once again provide the necessary training to midshipmen on 
their vessels in a safe, zero-tolerance environment.
    Sexual assault and harassment incidents led the Middle 
States Commission on Higher Education to issue a warning to the 
academy last year that its accreditation status may be in 
jeopardy. According to the commission, the academy failed to 
meet five of its 14 standards. The assessment highlighted that 
the campus climate and incidents of sexual assault and 
harassment have been a serious and recognized problem for more 
than a decade but still have not been addressed adequately.
    The commission also noted that the academy has been slow to 
hire and retain key leadership personnel. I am particularly 
concerned that the sexual assault response coordinator who was 
making effective changes on campus is no longer with the 
academy and that position remains vacant.
    The good news today is that the current leadership at the 
academy and at MARAD have shown a willingness to provide the 
necessary training and assistance and, more important, to 
change the culture and environment at the academy.
    Victims simply must not be subjected to sexual assault and 
harassment nor face retribution for speaking up. I want to 
ensure each and every midshipman, their parents, and everyone 
associated with the academy, that this is a problem that we are 
committed to solving and absolutely must solve.
    [The statement follows:]
             Prepared Statement of Senator Susan M. Collins
    Today, our subcommittee is holding this hearing on the United 
States Merchant Marine Academy's (USMMA or Academy) response to reports 
of sexual assault and sexual harassment, an unacceptable problem for 
the Academy that has existed for far too long. As a result, the 
Academy's accreditation status is in jeopardy.
    The U.S. Merchant Marine Academy is a critical institution 
dedicated to ensuring that our country educates and retains 
credentialed officers in our armed services and merchant mariners for 
the maritime industry. Graduates of the Academy are essential for our 
nation's defense, and in times of war are crucial to moving our troops, 
supplies, and equipment.
    Unfortunately, just like many other universities, service 
academies, and even the U.S. Gymnastics team, the USMMA continues to 
face challenges in addressing incidents of sexual assault and sexual 
harassment both on its campus as well as during the Sea Year, when 
midshipmen are sent to train on U.S. flagged commercial vessels.
    When parents send their children off to college, the last thing 
they expect is for them to endure repugnant and at times criminal 
behavior, and to find themselves unable or unwilling to seek help or 
report their experience. Let me be clear: sexual assault is a heinous 
crime that must be eradicated in every corner of our society.
    But it is particularly important since parents entrust their 
children to our nation's service academies, we bear the responsibility 
to ensure the safety of the young people enrolled.
    According to the most recent anonymous survey, 4 percent of 
midshipmen experienced unwanted sexual contact in the last academic 
year, but for female midshipmen, this number was nearly 20 percent. 
This roughly translates to 27 of the 150 female midshipmen at the 
Academy who experienced inappropriate sexual contact, and another 6 
incidents involved male cadets, for a total of 33 incidents.
    Even more alarming is the fact that only four of these 33 
midshipmen felt comfortable enough to file a restricted report of their 
experience, which allowed them to receive appropriate medical, legal, 
and counseling services. It is appalling that none of the 33 felt safe 
enough to make an unrestricted report that would allow law enforcement 
to investigate. That is simply unacceptable.
    For too long, the Academy passively accepted a culture where 
midshipmen who experience sexual assault or harassment are either too 
afraid of reporting incidents or are fearful of retribution from their 
peers. A recent report comparing our nation's five service academies 
showed that the USMMA has the highest rate of sexual assaults based on 
anonymous survey data but the lowest rate of formal reports.
    The crisis at the Academy was highlighted in June 2016, when former 
Secretary Foxx temporarily suspended the Sea Year program until he 
could guarantee the safety of all Midshipmen training on commercial 
vessels. During the suspension, the Department worked with the maritime 
industry and labor unions to develop a course of action to address 
sexual assault and sexual harassment, and assigned midshipmen to 
Federal vessels and provided other training opportunities to prevent 
delaying graduation for any student.
    Just last month, the new Transportation Secretary Chao resumed the 
Sea Year program with specific eligibility criteria set by the 
Shipboard Climate Compliance Team. To date, five companies that have 
met these requirements are able to once again provide the necessary 
training to midshipmen on their vessels in a safe, zero tolerance 
environment.
    Sexual assault and harassment incidents led the Middle States 
Commission on Higher Education to issue a warning to the Academy last 
year that its accreditation status may be in jeopardy. According to the 
Commission, the Academy failed to meet five of its 14 standards, and 
the assessment highlighted that the campus climate and incidents of 
sexual assault and harassment have been a serious and recognized 
problem for over a decade but still have not been addressed adequately.
    The Commission also noted that the Academy has been slow to hire 
and retain key leadership personnel. I am particularly concerned that 
the Sexual Assault Response Coordinator, who was making effective 
changes on campus, is no longer with the Academy, and the position 
remains vacant.
    The good news today is that current leadership at the Academy and 
at MARAD have shown a willingness to provide the necessary training and 
assistance, and more important, to change the culture and environment 
at the Academy to zero tolerance for sexual assault and sexual 
harassment. Victims must not face retribution for speaking up.
    I want to ensure the midshipmen, parents, and everyone associated 
with the Academy, that this is a problem we can solve, and absolutely 
must solve.
    I am very pleased to be joined by the ranking member, Senator Jack 
Reed. I want to welcome our panel of witnesses. We are joined today by:

  --Joel Szabat, Executive Director of the Maritime Administration 
        (MARAD);
  --Rear Admiral James Helis, Superintendent of the U.S. Merchant 
        Marine Academy; and
  --Calvin Scovel, Inspector General of the U.S. Department of 
        Transportation.

    Let me now turn to Senator Reed for his opening remarks.

    Senator Collins. I am very pleased to be joined today by 
our ranking member, Senator Jack Reed. And I know Senator 
Manchin has been here too.
    And I want to welcome our panel of witnesses. We are joined 
today by Joel Szabat, the executive director of the Maritime 
Administration, MARAD; the Rear Admiral James Helis, the 
superintendent of the U.S. Merchant Marine Academy; and Calvin 
Scovel, the inspector general of the U.S. Department of 
Transportation.
    I am now pleased to turn to Senator Reed for his opening 
remarks.

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Senator Collins, for 
calling this very important hearing. But also let me say I 
associate myself entirely with your comments. I think you 
discuss this issue with great eloquence, great clarity, and 
great emphasis, because it is critically important.
    Like any other institution of higher education, the U.S. 
Merchant Marine Academy has to have an environment that 
students feel safe, they feel that they have the ability to 
communicate with responsible officials if there is an issue, 
that they have to be protected and supported not just by their 
classmates and colleagues but by the senior leadership of the 
academy. And I believe that you have to act with a great sense 
of urgency to accomplish that mission.
    We are in a situation today where we are seeing actually 
the rate of sexual assault at the academy rising. This is clear 
based on the preliminary results of the 2016 survey where 
nearly 20 percent of female midshipmen reported experienced 
sexual assault. This is a 2 percent increase from 2014 and a 5 
percent increase from 2012.
    Addressing this problem is challenging, particularly when 
key personnel positions, as Senator Collins points out, that 
directly manage sexual assault and sexual harassment prevention 
and response are vacant, delayed by President Trump's, I 
believe, counterproductive hiring ban. This ban has held up 
hiring for critical leadership positions at the academy, 
including the sexual assault response coordinator, victim 
advocates, and the commandant of midshipmen.
    The funding is there for the hiring of these individuals, 
but the ban prevents that. The Federal Government certainly is 
not saving any money. It is just causing an awful lot of 
unnecessary, I think, harm, all the while sending a terrible 
signal to students, their parents, and the American people that 
this problem is not being taken seriously.
    Months later, a hiring exemption was granted for some of 
these positions, but another 22 critical positions remain 
vacant. You cannot run a school and ensure the safety of 
students and provide the quality education these students 
deserve without the faculty and staff to support operations.
    The hiring freeze does not apply to the other service 
academies, and it should not apply to the Merchant Marine 
Academy. I do not think there should be any hiring freeze at 
all and particularly in these critical positions.
    I recognize that the Merchant Marine Academy is not the 
only institution facing the challenge of sexual harassment and 
assault. Colleges across America are struggling to address this 
problem. It is not unique to the Merchant Marine Academy. 
However, as one of the Federal Government's service academies, 
we should expect the Merchant Marine Academy to be a model for 
institutions of higher learning around the country.
    To get there, we must demand accountability, provide 
sufficient funding, and learn from what has been successful 
elsewhere.
    At the other military service academies, victims are 
immediately provided legal counsel. Does the policy make sense 
at the Merchant Marine Academy? That is an issue I think we 
would like to explore today. What would we need to do to 
implement this policy?
    Because the Merchant Marine Academy's unique Sea Year 
program takes students across the globe, we need to make sure 
that the roles and responsibilities of investigation of sexual 
assault cases overseas are clearly understood by the 
investigating agencies, the shipboard operators, the 
midshipmen, and the academy itself. Based on the briefings we 
have had so far, I am not confident that this is the case. In 
fact, my concern is that we are sending young people onto ships 
that are not prepared to accept them, nor do they understand 
what their options are when they are aboard those ships. And 
that is a failure, ultimately, of leadership.
    Finally, I would like to address concerns over reprisal and 
retribution, which is the key problem that keeps too many 
students from coming forward. In order for students to feel 
comfortable reporting incidents of sexual assault and 
harassment, a culture totally intolerant of reprisal is 
required.
    I understand the Merchant Marine Academy does not fall 
under the Uniform Code of Military Justice, which treats acts 
of retribution as a criminal offense, but students in the 
industry need to stand up for the victims, not blame them. 
Swift action must be taken against those that hold such an 
attitude.
    These are just a few of the many concerns that I have about 
the work that remains to be done. If resources are needed, now 
is the time to let us know. I fully realize that this is an 
issue that cannot be solved with any one remedy or policy. It 
will take a concerted effort and multifaceted approach from the 
top down.
    I look forward to hearing from our witnesses about their 
plans and ideas.
    Thank you, Madam Chairwoman.
    Senator Collins. Thank you very much, Senator Reed.
    Senator Manchin, would you like to make any opening 
comments?

                    STATEMENT OF SENATOR JOE MANCHIN

    Senator Manchin. Madam Chairman, thank you for holding 
this. I think it is extremely important.
    I want to thank our witnesses for the testimony they are 
going to be providing today for us. I do not need to remind 
them there is no place for sexual assault anywhere in our 
society, let alone in our United States Merchant Marine Academy 
or any of the other academies.
    As someone like all of us who nominates young men and women 
to the academy each year, I am outraged, truly outraged, by 
these reports. I think we all should be ashamed of them.
    I want to make sure that you are all aware that everyone 
that basically sits on this committee takes this issue 
extremely seriously, and we are waiting to hear your report, 
and then we will have questions following.
    Thank you.
    Senator Collins. Thank you very much.
    We will now start with our witnesses, and we are going to 
begin with Mr. Szabat.

                  SUMMARY STATEMENT OF HON. JOE SZABAT

    Mr. Szabat. Good morning, Chairwoman Collins, Ranking 
Member Reed, Senator Manchin. Thank you for the opportunity to 
discuss the United States Merchant Marine Academy at Kings 
Point today. The academy is one of the five Federal service 
academies and America's flagship school to educate and license 
merchant mariners under a 4-year maritime-focused academic and 
technical program.
    The Maritime Administration and the Department of 
Transportation are giving the academy our wholehearted support 
to address the problem of sexual violence and coercive 
behaviors. These are our people being victimized. We look after 
our people. We have no higher priority.
    Superintendent Helis will discuss the actions being taken 
by the academy to address these issues. My focus will be on the 
actions MARAD and the maritime industry are taking to address 
unacceptable behaviors at sea.
    While at school, midshipmen spend a full year, half of 
their second and third years, at the academy, training at sea. 
Most of this training is done aboard commercial vessels. We 
call this training Sea Year.
    Post-graduation, Kings Pointers have a 5-year service 
obligation aboard those same companies' same vessels, either in 
the military or, for most of them, to work as licensed mariners 
on board those commercial vessels. These Kings Pointers are the 
core of the civilian mariners our Nation relies on to meet the 
military sealift requirements whenever our warfighters are 
deployed overseas.
    In 2009, the Government Accountability Office reported a 
multitude of USMMA budget and management problems at Kings 
Point. This led Congress to impose restrictions on the 
academy's budget and led DOT and MARAD to impose other 
management controls.
    Three different superintendents worked to fix these 
problems between 2008 and 2011, but it was not until 
Superintendent James Helis arrived in 2012 that the campus 
successfully addressed its management issues. In 2014, the 
Government Accountability Office (GAO) reported that the 
academy had successfully addressed all 47 of the management 
shortcomings identified in 2009.
    In June 2016, the Middle States Commission on Higher 
Education said that the restrictions imposed in 2009 were 
incompatible with the mission of an independent academic 
institution. The commission called for the academy's 
authorities to be reinstated as a condition of accreditation.
    As the chairwoman noted, included in the Middle States 
accreditation warning were more troubling reports of incidents 
of sexual assault and sexual harassment at the academy. Similar 
reports of inappropriate behaviors from other surveys and 
sources on campus and at sea during the academy's signature Sea 
Year training program prompted former Transportation Secretary 
Foxx to temporarily suspend Sea Year.
    During the stand-down, Secretary Foxx ordered a cultural 
audit to assess the links between those unacceptable behaviors 
on campus and at sea. Within 2 weeks of the stand-down, a 
consortium of 14 maritime leaders came to MARAD with a proposal 
to address sexual assault and sexual harassment at sea. MARAD 
created a Shipboard Climate Compliance Team that turned the 
initial industry proposals into required criteria for companies 
to meet to ensure the safety of our midshipmen.
    In January, the Secretary approved the consultants' 
recommendation to establish Sea Year eligibility criteria for 
each company to meet. In February, MARAD's team finalized the 
requirements and criteria. These far-reaching criteria include 
zero-tolerance for sexual assault and sexual harassment related 
conduct aboard ships. It provides prevention training for crews 
and vetted mentors for midshipmen. We set forth a clear and 
detailed enforcement protocol for reporting and tracking of 
incidents.
    As of today, 5 companies have met the new criteria and are 
once again safely hosting midshipmen aboard their vessels. 
Other companies have applied. When they finish meeting the 
criteria, they will represent 84 percent of the commercial Sea 
Year's training capacity prior to the stand-down.
    We will do more. By this summer, we will roll out with 
industry best practices for anti-coercive behavior training. 
The same industry organization will also provide standardized 
computer-based training for the entire maritime industry. This 
summer and annually thereafter, we will review the effects of 
the actions we have taken and make improvements as appropriate.
    The leadership at MARAD, at the academy, on our SCCT team, 
and among our partners in industry and labor are determined to 
eliminate coercive behaviors, including sexual assault on 
campus and at sea. Even one incident is one too many.
    We appreciate the support the subcommittee has continued to 
provide as reiterated in the March 21st letter from the 
chairwoman and the ranking member to Secretary Chao. We look 
forward to working with you to ensure the academy's progress.
    I ask that my full written statement be entered into the 
record. I look forward to answering any questions you may have.
    [The statement follows:]
                 Prepared Statement of Hon. Joel Szabat
    Good morning, Chairman Collins, Ranking Member Reed and members of 
the Subcommittee. Thank you for the opportunity to discuss the United 
States Merchant Marine Academy (Academy or USMMA).
    The Academy is America's flagship school for educating licensed 
merchant mariners capable of serving our nation in peace and war. The 
USMMA is operated by the U.S. Department of Transportation (DOT) and 
managed by the Maritime Administration (MARAD). It offers a four- year 
maritime-focused program, centered on rigorous academic and practical 
technical training that leads to a Bachelor of Science degree, a United 
States Coast Guard (USCG) merchant mariner credential with an unlimited 
tonnage or horsepower officer endorsement, and, upon application and 
acceptance, a commission as an officer in the Armed Forces or uniformed 
services (National Oceanographic and Atmospheric Administration (NOAA) 
Corps or the Public Health Service (PHS) Corps) of the United States. 
USMMA graduates incur an obligation to serve 5 years as a merchant 
marine officer aboard U.S. documented vessels or on active-duty with 
the U.S. Armed Forces or uniformed services. In addition, they must 
serve as a commissioned officer in a reserve unit of the U.S. Armed 
Services for 8 years. In 2017, 176 Midshipmen are expected to graduate 
from the Academy.
    DOT, MARAD, and the USMMA take sexual assault and sexual harassment 
at the Academy very seriously. We adopted the same standardized 
approach to this problem as other Federal service academies. As best 
and as fast as we can, we are introducing policies to change the 
behavior and culture at the Academy to combat all kinds of abusive or 
coercive behaviors. This testimony discusses the actions MARAD has 
taken in conjunction with maritime industry, while the testimony from 
Superintendent Helis will discuss actions taken to combat sexual 
assault and harassment on the USMMA campus.
                                sea year
    The USMMA's shipboard training program, or ``Sea Year,'' exposes 
Midshipmen to life at sea on board commercial and military vessels and 
provides cost-effective hands-on seamanship and engineering sea time 
that meets the requirements to secure USCG mariner credentials. 
Midshipmen are required to have 360 days of sea service during their 
four-year maritime education to obtain their USCG merchant mariner 
credentials. Shipping companies and the U.S. Navy are part of a 
cooperative effort to ensure that a Midshipman's shore based education 
is enhanced by the required on-the-job training at sea.
    Sea Year is critical to the education and training of Midshipmen at 
the USMMA, and all training must be conducted in a safe and respectful 
environment. In the wake of a series of reports that indicated problems 
with sexual misconduct and other coercive behaviors, both on campus and 
at sea, DOT and MARAD leadership suspended commercial Sea Year so we 
could develop a better understanding of the problem and a strategy to 
ensure the safety of the Midshipmen. An independent external consultant 
assessed the organization and made recommendations in December 2016.\1\
---------------------------------------------------------------------------
    \1\ Logistics Management Institute (LMI). December 2016. 
``Department of Transportation U.S. Merchant Marine Academy Culture 
Audit.'' Available at: https://www.usmma.edu/sites/usmma.edu/files/
docs/USMMAReport%20508.pdf
---------------------------------------------------------------------------
    Last year, Secretary Foxx's decision to stand down commercial sea 
year over concerns about Midshipmen being subjected to sexual 
misconduct stirred vocal disagreement from industry leaders. Those same 
leaders, including many USMMA alumni, worked with MARAD through an 
extended stand down of Sea Year while the cultural audit was conducted. 
A consortium of 14 leading maritime companies came together with MARAD 
to examine ways to ensure that Sea Year training is conducted in a safe 
and respectful environment. Just two weeks after the stand down, the 
consortium brought forth a proposal to address sexual assault and 
harassment prevention and response. MARAD and DOT subsequently created 
the Shipboard Climate Compliance Team (SCCT) to establish standards and 
collaborate with industry, labor and the consortium, and lay out 
workable criteria for the companies to achieve those standards. The 
SCCT is led by a MARAD Senior Executive Service leader, who is a USMMA 
graduate. The team is made up of 10 experienced mariners (four of whom 
are female), and sexual harassment and sexual assault and civil rights 
experts. Working with industry and labor partners, and with assistance 
from a subject matter expert, the SCCT has established stringent new 
requirements that companies must meet to be eligible to participate in 
Sea Year training. Because of the strong working relationship between 
MARAD and these maritime leaders, five companies today are already 
meeting new standards for sea year eligibility and have Midshipmen 
currently, or preparing to, sail aboard their companies' vessels.

MARAD's ``Sea Year Eligibility'' criteria include the following:

    Company-Wide Zero Tolerance Message--Shipping company CEOs will 
issue an annual company-wide message outlining specific rules for the 
workplace, strongly stating that sexual assault and sexual harassment, 
including any retaliation based on a complaint, are unacceptable, and 
committing the company to eradicate such behavior and enforcing a zero-
tolerance policy.
    Annual Sexual Assault and Sexual Harassment Prevention Training 
Requirement for Crew--Annual sexual assault and harassment prevention 
training will ensure that crewmembers clearly understand what 
constitutes sexual assault and sexual harassment, its negative impact, 
the importance of prevention, and the severe penalties for engaging in 
prohibited behavior or for failing to report an incident. All 
crewmembers will clearly understand their responsibility as 
supervisors, employees, witnesses, and bystanders. Crewmembers must 
complete this training prior to Midshipmen arriving on board, or within 
72 hours of signing-on, if Midshipmen are already onboard the vessel.
    Mentors with Enhanced Selection Criteria and Duties--Mentors for 
each ship play a crucial role in the success and development of cadets. 
Per enhanced mentor qualifications, a mentor must certify that he/she 
does not have any pending complaints or history of violations of any 
other company's Sexual Assault Sexual Harassment policies. The mentor 
must be of good character, and know, support, and advocate for the 
company's sexual assault sexual harassment prevention and response 
policies. Mentor duties include:

  --Helping Midshipmen understand company shipboard policies and 
        procedures, and their roles and responsibilities aboard the 
        ship;
  --Serving as a resource for Midshipmen while onboard;
  --Being readily available to Midshipmen and seeking to understand 
        each individual's concerns about their vessel assignment;
  --Guiding the Midshipmen in understanding shipboard protocol, sexual 
        assault and harassment prevention and response policies, and 
        expected code of conduct;
  --Supporting Midshipmen once they join the crew and helping them 
        transition from their academic learning environment to the 
        professional shipboard setting;
  --Encouraging the development of a well-rounded mariner;
  --Referring Midshipmen to other resources as needed, such as other 
        crewmembers aboard the vessel, company employees, or Academy 
        personnel; and
  --Participating in prescribed sexual assault and harassment 
        prevention and anti- discrimination training and serving as a 
        reporting mechanism for complaints of sexual misconduct.

    Verify Annual Sexual Assault and Sexual Assault Prevention and 
Response Training--Each company will provide MARAD documents describing 
company-specific training protocols; the company's anti-discrimination, 
harassment, retaliation and sexual misconduct policies, including 
complaint reporting policies and procedures; a description of the 
company's investigation process and enforcement procedures; and, a 
mechanism for verifying their understanding of the issue.
    Zero-Tolerance Policy Regarding Romantic or Sexual Relationships--
Companies will actively support the USMMA Sea Year Conduct policy for 
Midshipmen, which prohibits romantic or sexual relationships between 
Midshipmen and crewmembers, and the consumption of alcohol by 
Midshipmen under 21 years old. Companies will immediately report known 
Midshipmen violations to the USMMA. A violation of the USMMA Sea Year 
policy may result in counseling or punishment pursuant to the 
Midshipmen Regulations.
    MARAD Will Maintain a Record of all Relevant Company Policies--
Companies will submit all relevant policies and documentation to MARAD, 
and MARAD will verify compliance annually. Required documentation 
includes, but is not limited to, sexual assault and harassment 
prevention and response policies; a description of company's complaint 
reporting process and procedures; policies related to confidentiality, 
enforcement, and retaliation and investigation procedures; and, the 
location of sexual misconduct prevention policies onboard the vessel.
    Company Debrief--Currently, both Midshipmen and the Vessel Masters 
evaluating them provide a report to the USMMA upon completion of an 
individual's Sea Year training. In addition to these reports, the new 
criteria require the company to provide the Academy a sexual assault 
and sexual harassment debrief at the completion of the Midshipmen's Sea 
Year time with the company. The debrief provides the company an 
opportunity to specifically addresses issues and note any concern or 
need for improvements.
    The requirements outlined above will be reviewed starting 6 months 
after MARAD initially certifies a company to participate in Sea Year, 
and annually thereafter. In addition, the SCCT has developed and is 
implementing a company-by-company review process to recommend 
eligibility for carrying USMMA Midshipmen aboard their commercial ship. 
The SCCT will review documents provided by carriers to ensure 
compliance with the criteria. Once that process is complete, the USMMA 
Superintendent may issue an eligibility letter. MARAD Headquarters will 
coordinate with USMMA to board vessels and visit companies to conduct 
Shipboard Climate Compliance Team (SCCT) audits. The audit priority 
will be driven by review of company documentation that pertain to 
sexual misconduct. Additional feedback from the companies will be 
provided in accordance with the SCCT requirements. This is in addition 
to current reporting from the Midshipmen to the USMMA Department of 
Shipboard Training Academy Training Representative Midshipman 
Assignment Report, which provides feedback from the cadet about the 
company and sea year experience. Each of these reports and 
opportunities for feedback will specifically addresses sexual 
harassment and sexual assault. The audit team will consist of one to 
two MARAD representatives.
    At present, five companies have met compliance requirements and 
resumed hosting Midshipmen on their vessels. MARAD is also reviewing 
the packages of several other companies which have applied to meet the 
Sea Year requirements. Collectively, the companies that have been 
approved, or are applying, represent 84 percent of the commercial Sea 
Year training provided before the suspension.
                             accreditation
    Actions to improve sexual assault and sexual harassment prevention 
and response at the Academy also address concerns raised during the 
Academy's reaccreditation. In June 2016, the Middle States Commission 
on Higher Education (MSCHE) placed the Academy's accreditation in 
warning status because it found that the Academy was not meeting five 
of MSCHE's fourteen standards of accreditation. Of the five standards, 
one pertains to improving sexual misconduct response and prevention and 
four are related to independent governance at the Academy and returning 
budget and management authorities to the USMMA as a condition of 
accreditation.
    In 2009, the Government Accountability Office (GAO) issued a report 
that described certain USMMA budget and management problems, which led 
Congress to require DOT and MARAD to provide additional oversight of 
the Academy's budget. The USMMA had three Superintendents from 2008 to 
2011 trying to fix these problems. Rear Admiral James Helis became 
Superintendent in 2012 and brought stability and resolution. By 2014, 
the GAO reported to Congress that the USMMA had addressed all 47 of the 
management shortcomings that GAO identified in 2009. Returning budget 
and management authorities to the USMMA addresses accreditation 
concerns and recognizes the tremendous accomplishments by 
Superintendent Helis and his leadership team.
    The Academy remains accredited while we work with MSCHE to address 
their requirements and recommendations, and we are making good 
progress. As recommended by MSCHE, DOT requested relief from 
legislation that constrains the Academy's budget. Thanks to the actions 
of this Subcommittee, one of the two constraints has already been 
lifted. MARAD and the Academy are currently working to fill key 
positions and to return direct reporting authority for human resources, 
financial management and procurement back to the Academy. Finally, as 
noted above, DOT and MARAD are supporting the Academy's efforts to 
ensure the safety of its Midshipmen by improving sexual assault and 
sexual harassment response and prevention on campus and during Sea 
Year. The Academy has 2 years to return to full compliance, and we are 
confident that we will meet that goal and ensure the highest caliber 
education for the Academy's Midshipmen.
                          academy improvements
    Between fiscal year 2010 and fiscal year 2016, $102.1 million has 
been appropriated for the Capital Asset Improvement Program (CIP). The 
USMMA has fully renovated all six student dormitories, as well as the 
campus dining facility, and security enhancements have been made to 
provide safe living and learning spaces for Midshipmen. We have 
replaced the main pier and severely damaged sections of the seawall. 
These improvements restored structural integrity and enhanced safety, 
providing a modern platform for instructional, competitive and 
recreational waterfront activities. Additionally, all phases of the 
water main replacement are now complete, as are phase two of the survey 
and design of the electric grid and power supply improvements. This is 
a three-phase project for all buildings on campus that will increase 
reliability, improve energy efficiency, and reduce utility costs.
    The process to renovate the four main academic buildings has begun, 
which will improve the Midshipman learning experience. A generous 
alumni donation has allowed improvements on lower Roosevelt Field. 
Additionally, renovation of Zero Deck is currently underway and 
scheduled for completion in May 2017. When completed this project will 
provide roughly 90,000 square feet of below-grade basement level space 
that connects all six barracks and Delano Hall, to allow a safe and 
secure environment when traveling between these locations.
    DOT and MARAD are committed to the continued success of the Academy 
and we intend to build upon the improvements that have been made in 
recent years. We appreciate the support this Subcommittee has provided 
and look forward to working with you to ensure the Academy's progress.
    Thank you for your interest, and I am happy to answer any questions 
you may have.

    Senator Collins. Without objection, your full statement 
will be put in the record, as will those of the other 
witnesses. Thank you.
    Admiral Helis.
STATEMENT OF REAR ADMIRAL JAMES HELIS, SUPERINTENDENT, 
            U.S. MERCHANT MARINE ACADEMY
    Admiral Helis. Good morning, Chairman Collins, Ranking 
Member Reed, and members of the subcommittee. Thank you for the 
opportunity to testify on the prevention of sexual assault and 
sexual harassment at the United States Merchant Marine Academy.
    Executive director Szabat has covered some basics about the 
academy and its mission to educate and graduate licensed 
merchant mariners and leaders of exemplary character to serve 
our Nation's marine transportation and national security needs.
    I would add that the academy attracts quality young men and 
women who meet rigorous admission standards. They demonstrate 
superior character and leadership qualities to complement a 
strong academic record. In recent years, the quality and 
diversity of incoming classes have improved considerably, which 
feeds into our efforts to build a healthy and respectful campus 
culture.
    It is an important dynamic that supports my top strategic 
priorities for the academy, which are to prevent sexual assault 
and sexual harassment and other coercive behaviors on campus 
and during Sea Year training, to conclude reaccreditation by 
the Middle States Commission on Higher Education, to continue 
modernizing and renovating campus infrastructure and 
facilities, and to strengthen midshipmen leadership 
development. I will focus my testimony today on sexual assault 
and harassment prevention and reaccreditation.
    Sexual assault and sexual harassment are unacceptable 
behaviors at any institution of higher education, especially 
one committed to developing our Nation's future leaders. To 
that end, we have taken a number of aggressive steps since 2012 
to address the problem.
    In fiscal year 2012, the academy hired its first sexual 
assault response coordinator and established a 24/7 victim 
hotline. The academy also works closely with the local victim 
advocacy agency to provide another confidential reporting 
option. We have beefed up mandatory training for faculty, 
staff, and midshipmen on sexual assault, sexual harassment, 
dating violence, stalking, and bystander intervention. We have 
also implemented recommendations made by the Department of 
Transportation inspector general in fiscal years 2013 and 2014 
after a thorough evaluation of the academy's sexual assault 
prevention and response program. In addition, a campus cultural 
study commissioned by the Department of Transportation in 2016 
generated more valuable recommendations that are also being 
implemented. The Defense Manpower Data Center continues to 
administer gender relations surveys and conduct focus groups 
across campus. While we have made progress in increasing 
midshipmen awareness and understanding of sexual assault and 
sexual harassment, we are extremely disappointed that the 
surveys show we are not seeing a decrease in the number of 
incidents.
    In 2016, we redoubled our efforts by recognizing that the 
core issue is the culture of the academy in providing a safe 
learning environment which values and respects every midshipman 
and allows them to develop into exemplary leaders. 
Additionally, this past fall, we created a sexual assault 
prevention and response office, and we are hiring two victim 
advocate educators and a Sea Year coordinator, in addition to 
the sexual assault response coordinator, to plan and execute 
training for victim services and prevention.
    A special team of staff, faculty, and midshipmen 
participated in the cultural change conference hosted by the 
U.S. Air Force Academy in February 2017 and are now drafting a 
comprehensive campaign plan to transform the academy's culture. 
Another committee is working to overhaul all Sea Year policies 
and training.
    Other actions this past year include vetting maritime 
companies through MARAD Shipboard Climate Compliance Team to 
enact standards to prevent sexual assault and sexual harassment 
from occurring at sea.
    All of our efforts are focused on building a community with 
zero-tolerance for sexual assault and sexual harassment, 
retaliation, bullying, hazing, coercion, victim-blaming, and 
alcohol misuse and abuse. We know that our leadership, staff, 
faculty, and midshipmen must all work together to eliminate 
these behaviors and hold those who violate academy standards 
accountable.
    I have a very personal stake in this problem as my own 
experience in assisting victims of sexual assaults dates back 
to the 1990s during my time in service in the Army as a 
battalion commander. I know firsthand from working with victims 
the lifelong harm these crimes inflict. It undermines unit 
readiness and cohesion, and hurts our ability to accomplish our 
mission.
    As a Federal service academy, USMMA should be setting an 
example for eliminating sexual assault and sexual harassment. 
Anything less is a failure on our part.
    The work we have done to improve sexual assault prevention 
and response also addresses one requirement the academy must 
meet for reaccreditation. In June 2016, the Middle States 
Commission on Higher Education placed the academy on a warning 
status for not meeting 5 of their 14 standards of 
accreditation. As detailed in my written testimony, the academy 
is taking actions to correct the deficiencies identified by 
Middle States and submitted a required report on our progress 
to Middle States on March 1. The academy remains accredited as 
we work to address the recommendations made by Middle States, 
and we anticipate their final report in July.
    Thank you for inviting me to testify today. I appreciate 
your interest and continued support for the academy and will be 
happy to answer any questions you might have.
    Thank you.
    [The statement follows:]
             Prepared Statement of Rear Admiral James Helis
    Good morning, Chairman Collins, Ranking Member Reed and members of 
the Subcommittee. Thank you for the invitation to testify on the state 
of the United States Merchant Marine Academy (USMMA or Academy).
    The mission of the Academy is to educate and graduate licensed 
merchant mariners and leaders of exemplary character who will serve 
America's marine transportation and defense needs in peace and war. 
Each year the Academy graduates highly-qualified U.S Coast Guard (USCG) 
credentialed mariners committed to serving the Nation as officers in 
the Armed Forces and the Merchant Marine.
    The Academy provides a comprehensive four-year leadership 
development experience. All graduating Midshipmen will receive a 
Bachelor of Science degree, a USCG-issued Merchant Marine officer's 
license, and a commission in an Active or Reserve Component of one of 
the Armed Forces. They can meet their service obligation in one of two 
ways: twenty to twenty- 5 percent will choose to serve 5 years on 
Active Duty as an officer in any branch of the Armed Forces, while the 
remaining majority of the class will sail for 5 years as a Merchant 
Marine officer on US-flagged commercial ships or with a Federal agency, 
which can include the Military Sealift Command or the National 
Oceanographic and Atmospheric Administration.
    The Academy's mission begins with the men and women who pass 
through its gates in late June to begin their four-year journey. The 
Academy has a highly competitive and selective admissions process. 
Candidates must have a strong academic record and demonstrate superior 
character and leadership potential through their participation in co-
curricular activities, athletics, and community service. They must meet 
rigorous medical and physical fitness qualifications for military 
service. And they must receive a nomination from a Member of Congress 
or qualify for one of fifty direct appointments by the Secretary of 
Transportation by demonstrating qualities deemed to be of special value 
to the Academy.
    I believe that enhancing the diversity of the Regiment of 
Midshipmen will strengthen our efforts to improving the campus culture, 
which in turn is critical to eliminating sexual assault, sexual 
harassment, and other coercive and unacceptable behaviors. Over the 
past 6 years the quality and diversity of the incoming classes has 
improved considerably. Comparing the classes of 2014 and 2020, the most 
recently admitted, we saw the mean score on the Scholastic Aptitude 
Test (SAT) improve from 1215 to 1280. The percentage of women admitted 
rose from 12.9 percent to 19.7 percent. Admission of individuals who 
represent racial minorities similarly rose from 15.2 percent to 24 
percent. Other indicators of the quality of our incoming candidates 
include class rank and grade point average, as well as candidates who 
have held key leadership positions in student government, athletics, 
and co-curricular and community activities. We are pleased with the 
progress we are making and expect to see continued improvements in the 
quality and diversity of future classes.
    My top strategic priorities for the Academy are preventing sexual 
assault and sexual harassment and other coercive behaviors, 
reaccreditation by the Middle States Commission on Higher Education 
(MSCHE), continuing our work to modernize and renovate campus 
infrastructure and facilities, and strengthening Midshipmen leadership 
development. I will focus my testimony today on sexual assault and 
harassment prevention and reaccreditation.
    Sexual assault and sexual harassment are unacceptable behaviors 
that have no place at any institution of higher education, especially 
one committed to developing our Nation's future leaders. I am committed 
to the elimination of sexual assault and harassment on our campus and, 
until we reach that goal, improving the environment at the Academy so 
that victims are comfortable reporting all incidents and confident that 
Academy personnel will respond appropriately to reported incidents. The 
steps we have taken since 2012 to address sexual assault and harassment 
are included in our annual reports to Congress. We welcomed an 
evaluation of our programs by the Department of Transportation's (DOT) 
Inspector General in fiscal year 2013 and fiscal year 2014, which 
provided another set of eyes on our programs and useful recommendations 
which we have implemented. In addition, the National Defense 
Authorization Act for fiscal year 2017, Public Law 114-328, requires 
the DOT Inspector General to report, by March 31, 2018, on the 
effectiveness of the sexual assault and sexual harassment prevention 
and response program (SAPR) at the Academy. The Defense Manpower Data 
Center (DMDC) continues to administer the Service Academy Gender 
Relations (SAGR) Survey in even numbered years, and conducts focus 
groups with Midshipmen, staff and faculty in odd-numbered years as they 
do for the other four Federal Service Academies. Additionally, the 
results of the study commissioned by the Department of Transportation 
in 2016 on the Academy culture have been reviewed, and we are 
incorporating the suggestions across campus.
    I am personally committed to solving this problem. My experience in 
assisting victims of sexual assault dates back to the 1990s when I 
served in the Army as a battalion commander. I know from working 
firsthand with victims the immeasurable, lifelong harm these crimes 
inflict, and how they undermine unit readiness and cohesion. Sexual 
assault and harassment are fundamentally at odds with our values as a 
Nation--values that we are obligated as leaders to live by, model, and 
expand on. They undermine our ability to accomplish our mission. The 
USMMA, a Federal service academy, should be setting the example for the 
Nation in eliminating sexual assault and sexual harassment. Anything 
less is a failure on our part.
    At the Academy, we established a multi-disciplinary Sexual Assault 
Review Board (SARB), which meets monthly, to provide executive 
oversight and procedural guidance for the SAPR program by reviewing 
ways to improve processes, system accountability and victim access to 
quality services. The SARB has implemented standard operating 
procedures for Investigating an Unrestricted Report of Sexual Assault 
and Processing a Restricted (confidential) Report of Sexual Assault, 
and Maintenance of Restricted and Unrestricted Reports.
    In fiscal year 2012, USMMA hired its first Sexual Assault Response 
Coordinator (SARC). The SARC resides at the Academy, and is available 
to Midshipmen 24/7 through a victim hotline. Victims are provided with 
information and referrals, and assistance in obtaining any necessary 
medical or mental health treatment at the Academy or at an appropriate 
facility in the local community and/or victim advocacy agency. Victims 
have access to confidential (restricted) reporting through the SARC, 
Health Clinic counseling staff, the Chaplain and a small number of 
specially trained staff and faculty victim advocates. The Academy works 
closely with the local victim advocacy agency to provide an additional 
confidential reporting option. A victim may also make an unrestricted 
report, which will result in the initiation of a criminal and 
administrative investigation.
    The SARC, working with the Superintendent, Commandant and Dean of 
Academics, has significantly improved training across the Academy aimed 
at the prevention of sexual assault and sexual harassment. Faculty and 
staff receive mandatory training annually. Incoming Midshipmen receive 
mandatory training in the first three weeks in small group settings 
(20-25 midshipmen per training) covering the topics of sexual assault, 
sexual harassment, dating violence, stalking, and bystander 
intervention. Beginning with the Class of 2019, we increased training 
to three hours from the one hour that previous classes received. The 
SARC and Commandant continue to provide quarterly training throughout 
each Midshipman's academic career in both small and large group 
settings. The SARC and the Department of Professional Development and 
Career Services provide special training sessions prior to departure 
for Sea Year (sophomores spend 4 months at sea and juniors spend 8 
months at sea). Training focuses on where to seek help or assistance 
(captain, designated person ashore, SARC's 24/7 hotline), situational 
awareness, risk reduction, and bystander intervention. In 2016, the 
Academy adopted the Green Dot Bystander Intervention Program, which 
teaches students to identify volatile situations in which there could 
be the possibility of sexual violence and to defuse those situations 
through diversion or distraction. In addition, the SARB recently 
decided to increase our training on sexual assault and proper conduct 
for Midshipmen prior to their departure for sea training this summer.
    Our survey results since 2012 indicate that Midshipmen have much 
better awareness and understanding of sexual assault and sexual 
harassment, and appreciate the commitment of everyone from the 
Secretary of Transportation through MARAD, the Academy's senior 
leadership, and Midshipmen Regimental officers to eliminate this 
scourge from the Academy. We are extremely disappointed that we are not 
seeing a decrease in incidents in the survey results. In 2016, we 
redoubled our efforts to address this problem.
    As a first step, we began drilling down into the available data and 
feedback from the Advisory Board and our own conversations with 
Midshipmen. It became clear to me that we needed to more closely 
examine the Sea Year and its potential effects, as that is the 
component of our program that sets USMMA apart from the other Federal 
service academies. MSCHE affirmed this concern in their report last 
year, highlighting a need for the USMMA to address the issues of sexual 
assault and harassment at sea and on campus. After further analysis and 
discussion among the senior leadership at USMMA, MARAD, and DOT, as 
MARAD Executive Director Joel Szabat discussed in his testimony, former 
Secretary Foxx decided to stand down sea year training until procedures 
were in place to better assure a safe climate for our Midshipmen. The 
combined efforts of USMMA, MARAD, DOT, and industry and labor resulted 
in the certification process described by Mr. Szabat, which we have now 
implemented.
    In addition to the sea year stand down, Secretary Foxx directed a 
deep dive into USMMA culture to identify other factors that could be 
contributing to our challenges with sexual assault and harassment and 
other unacceptable behaviors. The study has provided useful analysis 
that will inform our way forward.
    While we have implemented policies and programs based on best 
practices adopted in the military and higher education, we have not 
seen the results we desire or expect. The core issue we must address--
that we are now addressing--is the very culture of USMMA. We must take 
actions to transform the USMMA culture such that every Midshipman is 
respected, valued, and can develop to her or his fullest potential to 
serve the Nation as a leader of exemplary character. The entire USMMA 
community must have zero tolerance for sexual assault and sexual 
harassment, retaliation, bullying, hazing, coercion, victim blaming, 
and alcohol misuse/abuse. Leadership, staff, faculty, and Midshipmen 
must all unite to eliminate this behavior and support victims, and hold 
those who violate Academy core values and standards accountable for 
their actions, when incidents take place.
    In the fall of 2016, we determined that the work related to 
managing USMMA's sexual assault prevention and response program had 
become more than one individual could reasonably handle. Accordingly, 
we created a Sexual Assault Prevention and Response Office (SAPRO) and 
are converting the SARC position, which became vacant in December 2016, 
to a SAPRO director. We are hiring two Victim Advocate-Educators who 
will assist the SAPRO director in planning and executing training and 
providing victim services. We have also added a sea year coordinator to 
the SAPRO.
    Additional steps we have taken over the past 6 months include a 
reintegration program for Midshipmen when they return from sea and the 
addition of mandatory online interactive sexual assault and alcohol 
abuse prevention training. A special team made up of staff, faculty, 
and Midshipmen participated in a cultural change conference at the US 
Air Force Academy in February 2017 and are now drafting a comprehensive 
campaign plan to transform USMMA culture. The Deputy Superintendent led 
an effort which has produced a comprehensive and integrated Sexual 
Assault Prevention and Response Framework. A committee also has begun 
work to overhaul sea year policies and all training in preparation for 
sea year.
    In addition to the efforts to improve the Sea Year training 
experience, the USMMA has developed a comprehensive plan to reduce 
sexual assault and sexual harassment on campus. The USMMA Sexual 
Assault Prevention and Response (SAPR) Program has significantly 
improved training across the Academy aimed at the prevention of sexual 
assault and sexual harassment, including online prevention training, 
case studies, videos, social media, professional speakers and small 
groups. Actions taken by the USMMA have included installation of new 
emergency call boxes and security cameras, improvement of the security 
guard force, implementation of a 24/7 hotline for reporting 
inappropriate behaviors, and victim assistance in obtaining medical or 
mental health treatment. Efforts will continue to improve upon the SAPR 
Program as the USMMA implements recommendations from the cultural audit 
and responds to feedback from Midshipmen.
    The Academy's work to improve sexual assault and sexual harassment 
prevention and response addresses one of the recommendations made by 
MSCHE, which accredits the Academy's academic degrees. In June 2016, 
MSCHE placed USMMA in a warning status because USMMA was not meeting 
five of MSCHE's fourteen standards of accreditation. We are presently 
taking action to meet the requirements identified by MSCHE to be 
granted full accreditation. Actions taken over the past year include 
MARAD's establishment of the Maritime Education and Training Executive 
Review Board (METERB), which serves as a formal governing and oversight 
body for USMMA; requesting and receiving relief from Congressional 
legislation constraining the Academy's budget during the interim 
Continuing Resolution period; developing templates for budget 
development and tools for linking resources with the Strategic Plan; 
filling key job positions and requesting that MARAD return direct 
reporting authority for human resources, financial management, and 
procurement back to the Academy; ensuring the safety of Midshipmen from 
sexual assault and sexual harassment by initiating a culture change 
campaign; and ensuring Midshipmen safety at sea by vetting maritime 
companies through MARAD's Shipboard Climate Compliance Team to 
determine if they have adequate policies and procedures in place to 
prevent sexual assault and harassment from happening, and are ready to 
respond if an incident does occur.
    We submitted our required monitoring report to MSCHE on time on 
March 1, 2017. MSCHE is in the process of reviewing our report. A 
visiting accreditation team has been appointed by MSCHE and is composed 
of educators and experts who ensure the Academy is meeting the 
standards of excellence established by MSCHE. The team, led by the 
Naval Academy's Academic Dean and Provost, Dr. Andrew Phillips, visited 
the Academy March 29-31, 2017 to conduct their on-site assessment and 
provide us their initial findings on our progress towards correcting 
the shortfalls identified in 2016. We anticipate MSCHE issuing its 
report on USMMA's progress and status of addressing their concerns in 
June 2017.
    Thank you for inviting me to testify today. I appreciate your 
interest and continued support for the Academy and will be happy to 
answer any questions you may have.

    Senator Collins. Thank you.
    Inspector General Scovel.
STATEMENT OF HON. CALVIN L. SCOVEL, III, INSPECTOR 
            GENERAL, U.S. DEPARTMENT OF TRANSPORTATION
    Mr. Scovel. Chairman Collins, Ranking Member Reed, members 
of the subcommittee, thank you for inviting me to testify on 
the U.S. Merchant Marine Academy's efforts to address sexual 
assault and harassment.
    Like everyone here today, I share your concern and 
appreciate your continued focus on these serious issues which 
threaten the health and safety of students at the academy.
    At the request of members of this subcommittee and others, 
my office has reviewed the academy's progress in completing 
planned actions to address sexual assault and harassment.
    Our Office of Investigations also has authority to 
investigate allegations of sexual assault brought to our 
attention, and we have, in fact, reviewed four such cases at 
the academy since 2009. That process included, in each 
instance, referral to the U.S. Department of Justice for 
criminal prosecution, which was declined. In addition, we are 
currently reviewing one open sexual assault complaint.
    My statement focuses on three areas: first, DOT's actions 
to address congressional requirements and our prior 
recommendations; second, our review last year of the academy's 
efforts to complete one of its action plans; and finally, the 
academy's continuing challenges and our upcoming work.
    Since 2008, DOT and the academy have taken actions in 
response to the Duncan Hunter Act as well as our 
recommendations. These include strengthening management and 
oversight of a sexual assault prevention and response program, 
establishing SOPs for investigating instances of sexual assault 
and harassment, and improving the timeliness of annual reports 
and action plans provided to Congress.
    However, in 2016, we identified additional challenges when 
we reviewed the academy's progress in completing its 2014-2015 
action plan. As we reported to this subcommittee, the academy 
had not completed more than a third of its 44 planned actions 
by the time that plan closed in November 2015.
    Many of the incomplete items were intended to address 
persistent problems that the academy continues to identify. 
These include, for example, inadequate Sea Year preparation; 
turnover in key positions, such as the sexual assault response 
coordinator; and, significantly, differences between the number 
of officially reported incidents of sexual assault and the 
number reported by surveys of midshipmen.
    In addition, we found a few instances where the academy 
incorrectly characterized actions from its plan. For example, 
it reported that it had completed planned briefings of shipping 
companies on how to respond to incidents of sexual assault 
among midshipmen, a key action if midshipmen safety during Sea 
Year were to be maintained. In fact, however, the academy had 
not conducted those briefings.
    As recent developments show, the effectiveness of the 
academy's response to sexual assault and harassment continues 
to be a serious concern.
    Last summer, the academy received an accreditation warning 
and a 2-year deadline to show compliance with key standards. 
Meeting these standards includes taking actions to combat 
sexual assault and harassment, particularly during Sea Year.
    Last year, DOT also ordered a temporary stand-down of the 
Sea Year program and commissioned an independent contractor to 
assess the academy's culture. That culture study noted progress 
on some fronts but concluded that the underlying climate 
contributing to these problems remains. The study also made 
several recommendations.
    In response, the academy published an ambitious culture 
change action plan in January with more than 50 actions planned 
for this fiscal year. We commend the department and the academy 
for their renewed focus on transforming the academy's culture, 
examining Sea Year, and better supporting victims of sexual 
assault and harassment. However, as our prior work shows, plans 
only go so far. Strong follow-through is key with sustained 
attention by leadership at all levels to ensure that plans 
achieve intended results.
    These concerns will guide my office's upcoming review, 
which will start by the end of June. Consistent with our 
congressional mandate, we will examine the academy's progress 
with this culture change action plan and the effectiveness of 
its sexual assault prevention and response program.
    We are committed to working with DOT in addressing sexual 
assault and harassment at the academy, and we will keep you 
apprised on this and any other related work.
    Madam Chairman, this concludes my prepared statement. I 
would be happy to answer any questions you or other members of 
the subcommittee may have.
    [The statement follows:]
            Prepared Statement of Hon. Calvin L. Scovel III
    Thank you for inviting me here today to testify on our work 
regarding the United States Merchant Marine Academy's (USMMA) efforts 
to address sexual assault and sexual harassment. USMMA (or the Academy) 
in Kings Point, NY, is one of five Federal service academies, and the 
only one operated by the Department of Transportation (DOT). DOT's 
Maritime Administration (MARAD) operates the Academy with the mission 
to train midshipmen to become professional merchant marine officers. 
While undergoing training, USMMA midshipmen are to comply with 
prescribed disciplinary and honor systems. However, surveys of 
midshipmen have revealed a longstanding pattern of sexual assault and 
harassment at the Academy, and recent developments have renewed 
concerns about the Academy's culture and the Department's oversight.
    In our independent oversight role, we conduct audits and 
investigations of the Department's management, oversight, and 
compliance with policies and regulations. Over the last few years, at 
the request of this Subcommittee and others, we have specifically 
reviewed USMMA's actions to prevent, respond to, and resolve instances 
of sexual assault and harassment. My statement today will focus on (1) 
the Department's actions in response to congressional requirements and 
our October 2014 report recommendations,\1\ (2) our 2016 review of 
USMMA's efforts to complete its 2014--2015 action plan,\2\ and (3) 
USMMA's continuing challenges and our upcoming work.
---------------------------------------------------------------------------
    \1\ Better Program Management and Oversight Are Required for 
USMMA's Efforts To Address Sexual Assault and Harassment (OIG Report 
No. ST2015004), October 23, 2014. OIG reports are available on our Web 
site: http://www.oig.dot.gov.
    \2\ Letter to Congress Regarding USMMA's Actions To Address Sexual 
Assault and Harassment (OIG Controlled Correspondence No. CC2016011), 
August 11, 2016.
---------------------------------------------------------------------------
                                summary
    Since the 2008 passage of the Duncan Hunter Act,\3\ the Department 
has taken a number of actions to address sexual assault and harassment 
at the Academy. For example, in response to our October 2014 report 
recommendations, USMMA established standard operating procedures (SOPs) 
for investigating sexual assault and harassment. As required by 
Congress, USMMA has also created action plans to address concerns 
identified during its surveys of midshipmen on the effectiveness of its 
policies and procedures in combating sexual assault and harassment. 
However, our 2016 review of USMMA's 2014--2015 action plan found that 
the Academy had not completed 15 (34 percent) of its 44 planned 
actions. Our work as well as a number of recent developments, such as 
the Department's decision to temporarily suspend the Academy's Sea 
Year\4\ program, highlight that USMMA remains challenged in following 
through on its plans to address longstanding issues with the Academy's 
culture. We plan to review USMMA's progress in our upcoming review 
beginning this summer.\5\
---------------------------------------------------------------------------
    \3\ Duncan Hunter National Defense Authorization Act for fiscal 
year 2009, Public Law No. 110-417 Sec. 3507, October 14, 2008.
    \4\ USMMA's Sea Year program is training on board maritime vessels 
during a midshipman's sophomore and junior years for about 135 days and 
265 days, respectively.
    \5\ Section 3512 of the National Defense Authorization Act for 
fiscal year 2017, Public Law No. 114-328, Dec. 23, 2016, requires us to 
submit, not later than March 31, 2018, a report that describes the 
effectiveness of the sexual harassment and sexual assault prevention 
and response program at USMMA.
---------------------------------------------------------------------------
    While my statement focuses on our audit work, our Office of 
Investigations has authority to conduct investigations--on its own, or 
in conjunction with others--for allegations of sexual assault or 
harassment brought to our attention. I stand ready to use this 
authority.
 usmma has taken action in response to congressional mandates and oig 
                            recommendations
    In 2008, Congress passed the Duncan Hunter Act aimed at creating a 
campus environment free of sexual assault and harassment at USMMA. The 
act required the Secretary of Transportation to direct USMMA to 
prescribe policies for addressing sexual assault and harassment and to 
conduct annual assessments of the program's effectiveness, develop 
action plans, and report to Congress on its progress.
    Although USMMA took actions and established goals in response to 
the Duncan Hunter Act, concerns about the effectiveness of USMMA's 
actions and reporting remained. For example, USMMA's survey for the 
2011--2012 academic year indicated an estimated 25 midshipmen, 17 
female and 8 male, were sexually assaulted and 136 midshipmen were 
sexually harassed--despite no incidents being formally reported in that 
academic year.
    In 2014, we issued a report in response to requests from members of 
this Subcommittee and the House Committee on Oversight and Government 
Reform that we evaluate USMMA's efforts to prevent sexual assault and 
harassment and DOT and MARAD's role in implementing its action plans. 
Our report--which covered the Academy's original action plan from 
November 2011 through June 2013--found that USMMA had not completed 
over a third of the actions identified for effectively managing its 
Sexual Assault Prevention and Response (SAPR) program.
    We made nine recommendations for improving program management and 
oversight and achieving the goals in the Academy's original action 
plan. The Department took prompt action to fully implement all of those 
recommendations, which we have since closed. Specific actions in 
response to our recommendations included the following:

  --Strengthening oversight. Our report found that USMMA had not 
        sufficiently assigned responsibility for program oversight and 
        for ensuring compliance with statutory requirements. In 
        response to our recommendation, the Department clarified the 
        SAPR program's oversight responsibilities in position 
        descriptions and policies and procedures for program 
        implementation.
  --Establishing SOPs. We reported delays in establishing SOPs for 
        effective SAPR program management. These SOPs included ones for 
        investigating sexual harassment and sexual assault, collecting 
        evidence related to sexual assault and processing restricted 
        sexual assault reports, and meeting requirements to report 
        allegations of sexual harassment and assault. We recommended 
        that the Academy formalize its SOPs related to the Sexual 
        Assault Response Coordinator's (SARC) responsibilities and the 
        execution of the SAPR program. In response, USMMA issued these 
        SOPs in September 2014.
  --Improving reporting timeliness. We reported that USMMA's annual 
        reports to Congress were issued, on average, nearly 2 years 
        after the academic year ended. For example, the final 2011--
        2012 report was issued in March 2014--21 months after the end 
        of the academic year.\6\ In response to our recommendation, 
        MARAD developed a plan with milestones, assigned 
        responsibilities, and established deadlines for delivering its 
        annual reports and action plans to Congress.
---------------------------------------------------------------------------
    \6\ USMMA's academic year runs from July 1 through June 30.

    The table below lists all actions USMMA took in response to our 
recommendations.

                      USMMA Actions Taken in Response to OIG's October 2014 Recommendations
----------------------------------------------------------------------------------------------------------------
                                    Recommendation                            Action Taken
----------------------------------------------------------------------------------------------------------------
1.............................  Define and designate             The Department, MARAD, and USMMA clarified the
                                 oversight             designation of authority for SAPR oversight, including in
                                 responsibility for    position descriptions and program policies and procedures
                                 USMMA's SAPR program
                                 (including sexual
                                 harassment
                                 prevention for
                                 students) to MARAD.
 
2.............................  Establish an           The Academy's SAPR Program Plan dated September 15, 2014,
                                 oversight framework   established the Academy's framework for the SAPR program
                                 for the USMMA SAPR
                                 program and its
                                 sexual harassment
                                 prevention efforts,
                                 including goals by
                                 which USMMA's
                                 progress can be
                                 assessed.
 
3.............................  Clarify lines of        MARAD clarified the lines of reporting for the SARC and
                                 reporting for the            the Civil Rights Director and provided a position
                                 Academy SARC and the                                  description for the SARC
                                 Civil Rights
                                 Director, and define
                                 the position
                                 requirements for the
                                 SARC.
 
4.............................  Establish continuing     The Academy established a minimum continuing education
                                 education                        requirement for the SARC of 40 hours annually
                                 requirements for the
                                 USMMA SARC position.
 
5.............................  Develop performance    The Academy's SAPR Program Plan dated September 15, 2014,
                                 metrics for the           established performance metrics for the SAPR program
                                 USMMA SAPR program
                                 and its sexual
                                 harassment
                                 prevention
                                 activities and an
                                 internal mechanism
                                 to measure USMMA's
                                 progress in meeting
                                 established program
                                 goals.
 
6.............................  Develop a plan with      The Academy developed a plan with milestones, assigned
                                 milestones, assigned     responsibilities, and deadlines to deliver the annual
                                 responsibilities,                report to Congress by January 15 of each year
                                 and deadlines by
                                 which annual reports
                                 and action plans on
                                 sexual assault and
                                 harassment are
                                 delivered to
                                 Congress.
 
7.............................  Formalize standard                The Academy issued SOPs related to the SARC's
                                 operating procedures    responsibilities and the execution of the SAPR program
                                 related to the
                                 SARC's
                                 responsibilities and
                                 the execution of the
                                 SAPR program.
 
8.............................  Identify associated         The Academy updated its action plan to identify the
                                 tasks,                specific tasks, responsible parties for each task, target
                                 responsibilities,     dates for completion, and completion percentages for each
                                 and timeframes to                                                         task
                                 accomplish each goal
                                 of its most recent
                                 action plan.
 
9.............................  Develop a systematic       In September 2014, the Academy finalized an SOP that
                                 recordkeeping system      outlined the process for documentation, storage, and
                                 for sexual assault      disposition of restricted and unrestricted reports and
                                 and sexual                                         SAPR Program training files
                                 harassment reports
                                 and incidents and
                                 related training.
----------------------------------------------------------------------------------------------------------------
Source: OIG analysis

  USMMA DID NOT FOLLOW THROUGH ON ALL OF ITS PLANNED ACTIONS FOR 2014-
                                  2015

    Despite USMMA's progress in response to the Duncan Hunter 
Act and its actions addressing recommendations from our October 
2014 report, allegations of sexual assault and harassment 
continued, and Congress remained concerned about USMMA's 
ability to follow through on its action plans. In response to 
direction from this Subcommittee,\7\ in 2016, we submitted a 
letter detailing our review of theAcademy's progress in 
implementing its 2014-2015 action plan, which closed in 
November 2015.
---------------------------------------------------------------------------
    \7\ Senate Report 113-182, which accompanied the Consolidated and 
Further Continuing Appropriations Act of 2015, Public Law No. 113-235 
(Dec. 16, 2014), directed us to assess the annual report and biennial 
survey information issued by MARAD in fiscal year 2015 to evaluate the 
Academy's progress in addressing corrective actions.
---------------------------------------------------------------------------
    USMMA's 2014-2015 action plan contained 44 action items, 
which were based on 7 areas that USMMA had identified through 
its 2014 anonymous survey of midshipmen:
    1. Working toward a ``no tolerance and full reporting'' 
climate;
    2. Working with industry to continue to address the climate 
aboard commercial vessels;
    3. Improving intervention and prevention training among 
faculty, staff, and senior leadership;
    4. Intensifying awareness, prevention, and bystander 
training among midshipmen;
    5. Improving the variety and quantity of after-class 
activities;
    6. Developing self-assessment tools; and
    7. Increasing gender diversity among Academy employees and 
midshipmen.
    Overall, we found that by the time the 2014-2015 action 
plan closed on November 4, 2015, USMMA had completed 29 of the 
44 items (about 66 percent) listed in the plan (see exhibit for 
our full assessment of the 44 items). USMMA's 29 completed 
action items included several key improvements, such as 
development of SOPs for administrative investigation of sexual 
assaults and more confidential reporting options for 
midshipmen.
    However, many of the incomplete items were intended to 
address significant problems that USMMA continues to identify. 
These included incident reporting, enhanced midshipman and 
staff awareness, Sea Year preparation, engagement between the 
Academy and the maritime industry, and engagement of USMMA 
leadership. USMMA also indicated in its action plan that 
vacancies in a few positions, such as that of the Civil Rights 
Director, whose responsibilities include sexual harassment 
prevention programs, had impeded progress on some action items. 
As of January 2017, this position had not been filled.
    Our review also noted that the incidents of sexual assault 
reported through midshipmen surveys continued to be 
significantly more than those formally reported. Specifically, 
in USMMA's anonymous 2014 survey, which had 761 eligible 
respondents,\8\ 17 percent of women and 2 percent of men (19 to 
28 women and 8 to 24 men)\9\ reported that they had been 
sexually assaulted, which was virtually unchanged from the data 
collected in 2012. However, USMMA reported in January 2016 that 
the number of sexual assault reports at the Academy had 
decreased from three in academic year 2013--2014 to one in 
academic year 2014--2015, which does not correlate with the 
survey results. According to the report, there is no easy 
method to determine why the number of reported incidents is 
low.\10\
---------------------------------------------------------------------------
    \8\ Eligible respondents were those midshipmen who checked into the 
2014 survey administration session and returned a survey. Midshipmen 
who either failed to check into the survey session or checked in and 
did not return a survey were deemed ineligible.
    \9\ These are weighted estimates. Defense Manpower Data Center 
analysts weighted the data so the results were reflective of the entire 
population, which consisted of 936 students (136 female and 800 male 
midshipmen).
    \10\ Preliminary 2014-2015 Academic Program Year Annual Report on 
Sexual Harassment and Sexual Assault at USMMA.
---------------------------------------------------------------------------
    Furthermore, our review raised concerns with USMMA's 
justification and documentation for completing its planned 
actions in some cases. For example, USMMA reported that it 
completed its planned action to conduct briefings with 
shippingcompanies on the possibility of midshipman-on-
midshipman sexual harassment and assault and how to respond to 
incidents. However, we found that the Academy had not yet 
conducted any such briefings.
    USMMA also reported that it completed its action to 
increase the gender diversity of faculty, coaches, and staff. 
However, we found that USMMA did not track information related 
to the gender diversity of its faculty, coaches, and staff and 
therefore cannot reliably report that it has increased 
diversity. As a result, we had no basis to assess completion of 
the item.
    Some of the items that we identified as incomplete in 
USMMA's 2014-2015 plan were rolled over into its 2015-2016 
plan, such as engaging with the industry to solicit ideas and 
make recommendations for additional training or policy changes. 
Overall, USMMA's action plans address the concerns that 
continue to be identified in survey and focus group results 
from year to year. These include reports of a pervasive sexist 
culture on campus, which can inhibit reports of sexual assaults 
due to fear of retaliation; inadequate sexual assault 
prevention training; and limited active engagement by 
leadership at all levels in addressing these issues. While 
leaders within DOT, MARAD, and USMMA have repeatedly stated 
that they are disturbed by the survey results and seriously 
focused on addressing these issues, followthrough will be 
critical to ensure action items are actually completed and 
achieve intended results.

  USMMA CONTINUES TO FACE CHALLENGES IN ADDRESSING SEXUAL ASSAULT AND 
              HARASSMENT, PROMPTING FURTHER DOT OIG REVIEW

    As we plan our future work, we will be looking at USMMA's 
progress since our last report as well as assessing its 
response to recent events and external study findings. In 
particular, since mid-2016, the Academy has encountered 
additional challenges related to its ability to carry out its 
action plans to combat sexual assault and harassment.
    For example, USMMA's persistent challenges regarding sexual 
assault and harassment have put the Academy's accreditation at 
risk. In June 2016, the Academy received a warning from the 
Middle States Commission on Higher Education (MSCHE), which 
issues determinations on the Academy's accreditation.\11\ Among 
other things, MSCHE stated that USMMA needed to take steps to 
combat sexual harassment and assault, particularly during the 
Sea Year. MSCHE noted that USMMA will remain accredited while 
on warning but gave the Academy 2 years to demonstrate 
compliance with several key standards, including taking steps 
to ``build a climate of mutual trust and respect on campus and 
during the Sea Year.'' Recognizing the continuing indications 
of sexual assault and sexual harassment, the former 
Transportation Secretary directed USMMA to stand down the Sea 
Year Program in June 2016.\12\
---------------------------------------------------------------------------
    \11\ At least every 10 years, all accredited institutions engage in 
an 18-24 month period of self-study intended to demonstrate 
institutional compliance with accreditation standards and to promote 
institutional improvement. USMMA completed its self- study process and 
hosted an evaluation team visit during the 2015-2016 academic year.
    \12\ The Sea Year was restored for service aboard Federal vessels 
while MARAD worked to establish requirements for companies providing 
Sea Year training opportunities for midshipmen. In January 2017, former 
Transportation Secretary Anthony Foxx authorized USMMA to phase in Sea 
Year on commercial ships on a company by company basis. USMMA resumed 
training on certified commercial carriers in March 2017.
---------------------------------------------------------------------------
    A subsequent external study also identified persistent 
issues with the Academy's culture. In 2016, following MSCHE's 
findings, DOT selected an independent contractor, Logistics 
Management Institute (LMI), to conduct a 60-day cultural 
assessment of USMMA and its Sea Year program. The LMI report, 
issued in December 2016, concluded that although the Academy 
has taken actions to address sexual assault and sexual 
harassment, the underlying climate contributing to these issues 
remains. The study noted that while the military and maritime 
influences have enabled an Academy culture focused on service, 
teamwork, and discipline, the limited oversight at sea 
contrasted with the stricter regiment on campus has caused a 
``split identity.'' The study pointed to other issues as well, 
such as fear of retaliation or alcohol influence, and noted 
that the Academy's number for incidents of sexual harassment 
was almost one-third higher than other military service 
academies' average of the same statistic. To close gaps in 
leadership, prevention programs, and Sea Year policies, LMI 
made several recommendations and identified three areas as 
immediate starting points for the Academy's future actions:

  --Build and align Academy leadership and management team across all 
        levels of the institution.
  --Develop and implement a comprehensive, multi-year Sexual Assault 
        and Sexual Harassment Prevention and Response Strategic 
        Campaign Plan.
  --Develop a Sea Year credentialing program that will enable the 
        Academy and industry to maximize program effectiveness while 
        maintaining the health and safety of the midshipmen.

    Recognizing the need to significantly transform the Academy's 
culture in regards to sexual assault and harassment, USMMA published a 
Culture Change Action Plan in January 2017 with goals aligned with the 
LMI recommendations. The plan is ambitious and includes over 50 actions 
to complete in fiscal year 2017, including immediate actions such as 
filling key positions in the SAPRO and Civil Rights offices, 
establishing a process for credentialing shipping companies for 
participation in Sea Year, and establishing policies and procedures 
against retaliation and reprisal to support victims.
    While USMMA's plan in response to these developments is an 
important step, our prior work has highlighted the importance of 
sustained management attention and oversight to ensure that the Academy 
follows through on planned items as intended and that planned actions 
have key goals, milestones, measured outcomes, and effective 
implementation. These concerns will guide our upcoming reviews of MARAD 
and USMMA. Specifically, by June 30, 2017, we are launching a new 
review of USMMA to meet a congressional mandate in the National Defense 
Authorization Act for fiscal year 2017.\13\ Consistent with the act, we 
plan to examine the effectiveness of the Academy's SAPR program, with 
specific focus on assessing progress with current plans.
---------------------------------------------------------------------------
    \13\ Public Law No. 114-328, Sec. 3512, December 23, 2016.
---------------------------------------------------------------------------
                               conclusion
    Sexual assault and harassment cause great psychological and 
physical harm and must be met with zero tolerance. We acknowledge and 
commend the Department, MARAD, and USMMA for their renewed focus on 
transforming USMMA's culture, closely examining its Sea Year, and 
better supporting victims of sexual assault and harassment. However, as 
both our prior work and recent developments have shown, the Academy's 
success will hinge upon its ability to carry out strong followthrough 
and sustained attention at the highest levels.
    We thank this Subcommittee for its continued attention to this 
vital area. We will keep you apprised as we continue to monitor DOT's 
progress in completing its planned actions and meeting its goals to 
eliminate sexual harassment and assault at USMMA.
    This concludes my prepared statement. I will be happy to answer any 
questions you or other Members of the Subcommittee may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

\14\ The Green Dot program teaches students to identify developing 
situations that could possibly lead to sexual assault and trains them 
to emply techniques, such as deversion or distraction, in order to 
separate a potential perpetrator and victim.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

\15\ PII is personally identifiable information. PHI is protected 
health information
\16\ Pub. L. No. 104-191 (Aug. 21, 1996).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Collins. Thank you very much for your testimony and 
the work that you have been doing on this very important issue.
    Admiral Helis, one of the very disturbing aspects of this 
problem is that I am not seeing an improvement in the 
statistics.
    Here we have the survey on sexual assault and sexual 
harassment that 87 percent of cadets took, more than 90 percent 
of the females, and we find that 60 percent of the women and 9 
percent of the men who took the survey reported having been 
sexually harassed. Twenty percent of the women and 1 percent of 
the men who took the survey reported having been sexually 
assaulted.
    Those numbers are so high when you look at comparisons with 
other schools, and the number of reports that have been filed 
are even more discouraging. We have seen in some schools an 
actual increase in reports, which is a result not of an 
increase in sexual assault and harassment but rather people 
feeling that they will be listened to if they come forward.
    So why do you think that you are having such a difficult 
time in changing the culture and instilling confidence in the 
midshipmen, that they will be taken seriously if they come 
forward? And what are you doing to implement the 
recommendations that the inspector general reports are still 
not in place?
    Admiral Helis. Thank you for the question, Senator. That is 
the problem that troubles all of us who are trying to deal with 
this, that in spite of the efforts that we have taken in the 
last almost 5 years, we have not seen any appreciable change in 
the numbers for both sexual assault and sexual harassment. 
Although the reporting is slightly up from 2011 and 2012, where 
there were no reports, the level of reporting are unacceptably 
low. And as you said in your opening statement, it is 
particularly troubling that midshipmen are not coming forward 
with unrestricted reports, which allow us to investigate these 
cases and hold the perpetrators accountable. That is a core 
issue that we are trying to confront.
    Again, it comes down to changes that we have to make in the 
academy's culture. I think among the barriers that we are 
dealing with, and these were affirmed in the cultural study 
done last year, there is, to a large degree, a degree of denial 
that there actually is a problem on campus. There is a tendency 
to engage in victim-blaming. Again, part of the culture is this 
is a difficult place and you just hang in there and you push 
forward. In some cases, this translates into, ``I just have to 
put up with this and push forward.''
    And what we are trying to educate midshipmen is: Yes, you 
go to sea. Okay, you may have to pull extremely long hours. You 
have to deal with being away from family. You have significant 
challenges and work. Those are the things that you have to work 
through. But you do not have to work through and tolerate being 
harassed and abused. And we are trying to push through and 
overcome that issue.
    Again, as identified in the LMI study, there is an 
unwillingness to intervene or to hold others accountable. There 
is, in a sense, a lack of personal ownership for the issue.
    And again, to address it, this is going to come down to, we 
are simply going to have to redouble our education and 
awareness efforts that we pursue on campus. The Sea Year stand-
down and the steps we have taken since then have certainly 
increased the level of attention on this issue, the amount of 
conversations. A positive sign is that we had midshipmen eager 
to step forward to participate in the cultural campaign 
planning process. I am beginning to see greater ownership on 
their part.
    A larger long-term issue, one is changing the demographics 
of the academy. In 2012, we were about 13 percent women. Today, 
we are just under 19 percent. The last three classes that we 
admitted over the last 3 years sequentially had record 
percentages of women for the academy. And that is going to be a 
key to changing the culture, is changing the demographics.
    But again, Senator, at core, the problem is how do you 
create the atmosphere where midshipmen are comfortable coming 
forward, reporting, not only comfortable that we will hold 
people accountable but there is also an issue that they will 
not be ostracized by their peers for the sense of, ``You are 
just getting somebody in trouble and you need to tough it 
out.'' That is an attitude that we just have to persistently 
try to stamp out at the academy.
    It is not a good answer. It is not a good answer, but that 
is the reality of what we are dealing with. And we are just 
going to have to continue to persist and, when we do receive 
reports, aggressively pursue them and hold perpetrators 
accountable in a way that clearly reinforces the message that 
leadership is, in fact, committed to this issue.
    Senator Collins. I will be coming back to some of those 
issues in the second round and asking the inspector general, 
with whom Senator Murray and I met in 2014 when he first issued 
his report, what his assessment is of that.
    Senator Reed.
    Senator Reed. Thank you very much, Senator Collins.
    Admiral, given your experience in so many different ways, I 
do not doubt your sincerity in trying to change the culture, 
but the culture seems to be a real complicated morass.
    For example, as I understand it, if there is an incident 
aboard a ship at sea, the Coast Guard has jurisdiction, but the 
Coast Guard is not particularly adept at investigating sexual 
assault claims. They usually will call, particularly if it is a 
foreign port, the FBI attache, who that is probably not at the 
top of his list, et cetera.
    So it leads to the question of, how do you prepare, 
particularly all midshipmen, particularly female midshipmen, 
for their Sea Year, in terms of clear guidance about who to 
report to or what their rights are? Because I also understand 
that policies change ship to ship, literally. Some ships have 
one approach. So can you give us an idea of how you are dealing 
with that?
    Admiral Helis. Thank you, Senator. You are correct.
    The structural complexities that you addressed in terms of 
jurisdictional authorities over Sea Year, over issues at the 
academy, it is, as you said, it is complex.
    How do we prepare midshipmen? In general, we have a series 
of lectures and seminars to prepare the midshipmen to go to 
sea, which covers all the aspects of safety and the working 
environment. We do address sexual assault and sexual 
harassment.
    We bring in recent graduates from the academy who will sit 
and meet with midshipmen, particularly focused on women coming 
in to meet with women to talk about the challenges they will 
face when they first go out into what is still a male-dominated 
industry, male-dominated crews, where the only women aboard 
might, in fact, be the midshipmen who are assigned to the ship 
for training.
    We are also clear in terms of providing midshipmen the 
reporting contacts. We provide them a range of contacts. It is 
basically however you can get in touch with us. They can 
contact the sexual assault response coordinator or the Sexual 
Assault Prevention and Response Office (SAPRO). They can 
contact any of the academy's faculty and staff who are trained 
and designated as victim advocates. They can reach out to the 
Department of Professional Development and Career Services who 
manages the Sea Year program.
    In terms of on the ship, part of the Shipboard Climate 
Compliance Team has been establishing best practices to make 
the practices more uniform across the industry. Each midshipman 
is now assigned an officer on the ship who is specifically 
designated as a mentor. They are told that is a potential 
reporting source, somebody who is there to look out for your 
welfare.
    They can report it through the ship's chain of command to 
the ship's captain. Companies have what they refer to as a 
designated person ashore who is an employee who is ashore who 
is there to deal with crew issues that the crew can directly 
contact.
    So we provide them this entire range of reporting sources. 
And it becomes to whom do you feel comfortable, confident 
reporting it?
    The preferred is to immediately report it to the chain of 
command on the ship because the incident is there, particularly 
if you are in a harassment situation, to get the chain of 
command to address the situation right there aboard ship.
    Do policies change ship to ship? Again, part of what the 
SCCT has been doing is reviewing company policies, trying to 
provide a standardization of best practices across industry.
    I would say, in general, it is report to your chain of 
command on the ship. That is the first preference, so they can 
deal within the company. That company's next point of contact 
would be the designated person ashore.
    Again, as I said, for midshipmen, they have multiple 
avenues for reporting to the academy.
    Senator Reed. One avenue they do not have is legal counsel.
    Are you the only admiral ever to graduate from West Point?
    Admiral Helis. Sir, probably. I know I am the only one in 
my class.
    Senator Reed. Okay. There are oddities in many 
institutions, including the Senate. That is a very inside joke.
    Army officer, lieutenant commander, if someone had a 
problem, they have a right to legal counsel who is trained as 
an advocate and also had the kind of skills that most attorneys 
have in terms of trying to figure out exactly how to help the 
person calling them. They do not have that option. Shouldn't 
they have that option?
    Admiral Helis. Senator, we do not currently have the 
special victim counsels that victims have in the Department of 
Defense. We are looking now to create a special victim advocate 
position. It is going to require hiring an additional attorney 
at the academy to fulfill those duties.
    We are in the process now of creating a position 
description and developing what the responsibilities and 
policies would be for that person in that position. And our 
intent is to move forward with bringing in that kind of 
resource and making it available.
    Senator Reed. I think it would make great sense.
    My time is over, but a quick response, is there a way to 
hold a ship's captain accountable? Because my limited knowledge 
of the Navy is that everything that happens on board a ship is 
ultimately the responsibility of that captain. And if an 
incident takes place and it is not successfully dealt with, or 
a climate is created where those incidents are sort of shrugged 
off, are we able to go in and say to that individual or to that 
company, you have a problem with us?
    Admiral Helis. To start, Senator, ultimately, the captain 
of the ship is responsible. Part of the shipboard compliance 
process is ensuring that companies make clear to the ships' 
captains that they are responsible in particular for the safety 
and welfare of midshipmen and issues of sexual harassment and 
sexual assault. That is part of the company approach and 
highlighting it.
    If we do discover that we are receiving from midshipmen in 
back briefs when they return to campus that there are 
particular problems in a ship or with a particular ship's 
officer, we would be reporting that back to the company, that 
here are reports that we are receiving. And we would have the 
option to just simply say we are not going to assign 
midshipmen. If there is a pattern of behavior, a lack of 
enforcement, we could terminate assigning midshipmen to that 
captain's assignment.
    Senator Reed. Is that a credible sanction? Or is it sort of 
saying thank you very much.
    Admiral Helis. I am not sure to the degree it would be seen 
by the company as a sanction. It is up to the company to 
sanction the ship's captains.
    Senator Reed. Okay. I would like in another round, Mr. 
Szabat, if you like to comment in the second round. I have gone 
over, but I will recognize you first.
    Senator Collins. Senator Capito.
    Senator Capito. Thank you, Madam Chair.
    Thank you all for being here. I would like to add my voice 
to the many that you have heard in the past and today who have 
deep concerns, obviously, about the actions and the accusations 
of sexual harassment at the academy, particularly during that 
Sea Year program that we have been talking about.
    Admiral, I would like to ask you, what do you do, in the 
protocols that you have developed, what has been done to ensure 
confidentiality for those who have been victimized? And how 
does that reflect differently in patterns of the past?
    Admiral Helis. Senator, thank you for the question.
    One of the first things that we established in 2012 was a 
new policy, a more comprehensive policy in addressing sexual 
assault and sexual harassment. We included in that policy the 
options for midshipmen to file restricted and unrestricted 
reports modeled off of the policy in the Department of Defense.
    There are reporting sources who are designated in the 
policy, and midshipmen are educated as to whom they can file an 
unrestricted report--a response coordinator, a victim advocate, 
health services chaplain. And so when a restricted report is 
filed, I do not even know who the victim is, who the accused 
is. I am simply told we have received a restricted report, here 
is some very broad--it occurred on campus or off campus. The 
victim is female or male.
    And the only questioning that I am going to do for the 
Sexual Assault Response and Consultation Team (SARC) when I 
report is, what are we doing for care for the victim? And that 
is really the focus.
    So if a restricted report comes in, we definitely do 
protect the confidentiality of the victim.
    In the event of an unrestricted report, we still take the 
best steps we can to protect the confidentiality of the victim 
during the investigative process. The people who are aware that 
there is an unrestricted report that is being investigated is a 
very narrow circle. And again, for the criminal investigations, 
it falls under Inspector General Scovel's personnel, and they 
are quite professional at maintaining a very low profile for 
their investigations, for their presence on campus.
    Ultimately, a challenge we face is that we are a small 
community. It is a small campus. But the policies and 
procedures for investigation and for adjudication, we do 
everything we can to protect the victim's confidentiality.
    Senator Capito. Do you have any feedback from students as 
to if they feel the confidentiality wall that is the option, if 
they choose that, is sufficient? I mean, do they feel like they 
are being adequately protected there?
    Admiral Helis. Senator, I think on restricted reports it 
is. We have seen an increase in restricted reports this year 
over the past, so they are coming in and reporting, so that 
they can get the services and assistance that they need.
    But, again, the surveys indicate that there are concerns, 
that midshipmen are concerned about the protection of their 
confidentiality in the process.
    Senator Capito. Right.
    Admiral Helis. And again, I think the largest challenge we 
face to that is if you issue a protective order and move a 
midshipman from one barracks to another to separate the victim, 
again, we are very small campus, both in numbers and physical 
size, so everybody is going to know that this person was moved 
and it does not just happen overnight.
    Senator Capito. Do you have the same issues that the 
military does in terms of potential for retaliatory measures? 
Is that something that you take into account when you are 
reviewing this?
    Admiral Helis. Yes, Senator. We do. We explicitly talk 
about retaliation as being totally unacceptable conduct. Again, 
it is one of the shifts we have to make in the culture, from 
victim-blaming to victim-supporting.
    The most common form that we have seen in retaliation is 
simple ostracism, and that is what midshipmen tell me. That is 
what midshipmen who have come forward on reports, both for 
assault and harassment, report, is there is an ostracism 
because you put one of your classmates at risk.
    Senator Capito. Right.
    Admiral Helis. There is a failure to identify that this 
person--who the victim is in the situation.
    Senator Capito. Let me ask a final question.
    You mentioned the women at the academy now are 19 percent 
up from 13, I think you said, percent over last several years. 
Obviously, there have been some very public incidents that have 
occurred. I guess I would not say I am surprised. I know you 
obviously put more emphasis in recruitment. But have you 
noticed over the last 3 or 4 years, when this has all come to 
light, that there has been a dip in your applications or 
interest in the academy?
    Admiral Helis. No, Senator. Again, part of changing the 
culture, clearly, we recognized in 2012 that we had to change 
the demographics, that we had to push the number up. And so we 
redoubled our efforts in terms of recruitment of women. So the 
applicant pools have remained strong.
    Anecdotally, in the last couple weeks, I had the 
opportunity to meet with some recruits at the request of a 
couple of our athletics coaches. I met with these applicants 
and their parents in my office. We had some very frank and 
candid discussions. They were all fully aware of the challenges 
we had faced. They could actually sit there and cite things 
from the LMI report, our most recent report to Congress. And 
they have come back and said they are still interested and they 
are still committed to coming to the Merchant Marine Academy.
    I think in terms of addressing individual recruits and 
addressing their parents, it becomes, okay, yes, we have 
challenges. We have problems. But we are upfront about them. We 
talk about them. We are not going to hide them. And we are 
taking serious steps over a sustained period to try to address 
them. And I think that builds the confidence in the parents.
    So, anecdotally, I would say that we are still there. And 
again, 3 years in a row, we hit record numbers for women.
    I do not think we will get there this year. I do not think 
we will go a fourth year in setting a record. I would not be 
surprised to see a dip in the percentage of women in this 
summer's class. But, again, we are going to continue to 
redouble our efforts and continue to focus on increasing the 
population of women.
    Senator Capito. Thank you.
    Senator Collins. Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    To all three of you, I do not know if you realize what we 
as Senators, the responsibility we take as far as nominating 
these young people. We go through an extensive process. I 
personally have a panel of people who have experience in this. 
They basically go through and nominate the best of the best, 
pick the 10 top, and then we make recommendations.
    Going through this process, especially when they are 
selected, the families get extremely, extremely excited about 
this opportunity. I usually make a phone call and tell them 
they have an opportunity of a lifetime to make a difference in 
their country, make us all proud in the State of West Virginia, 
in service to their country. And then to see the reports we are 
seeing, it is unacceptable, truly unacceptable.
    And, Admiral, here, the LMI report that you reported, it 
says that since you have taken over your role, a recurring 
issue that emerged during your interviews was a lack of 
effective communication from leadership. While several 
commented that the superintendent has used town halls and 
emails to disseminate information, feedback revealed that this 
type of communication still has been largely ineffective. Now, 
this has been since you have taken over.
    In my experience, communication is a lot more effective 
when there is a trust-based relationship face-to-face.
    So I would ask you, what have you done and how are you 
working to build these relationships in a different approach?
    Admiral Helis. Senator, we are appreciative of the young 
men and women that all the members nominate and send to us. We 
are very aware of our responsibility to them and to their 
parents and to their families for their care and well-being 
over the course of the 4 years. And the results that we see 
are----
    Senator Manchin. Admiral, have you changed your approach as 
to how you communicate?
    Admiral Helis. Senator, I meet twice a week now with small 
groups of midshipmen----
    Senator Manchin. Okay.
    Admiral Helis [continuing]. As encounters. Those are 
essentially open sessions. I will give them a quick, ``Here is 
what is going on in the superintendent's office this week,'' 
and then it becomes an open session and dialogue.
    Senator Manchin. Let me say this. The LMI report also 
mentioned that the midshipmen alumni that shared in this 
report, that they were warned during plebe indoctrination that 
if they go to the on-campus health clinic, they could be 
medically disqualified. That includes victims of sexual 
assault. So they are not going to come forward.
    This is a horrific environment.
    Admiral Helis. Senator, we have to address that.
    Senator Manchin. Either of the other two, do you have 
anything to say about that?
    Mr. Scovel. Good morning, Senator.
    Let me back up to your other point, your first point having 
to do with building a culture of trust by means of consistent 
and clear communication from leadership. We do know, from 
looking at the academy's culture change action plan, that a 
number of discrete items are aimed to achieve that.
    My office now has a statutory mandate to examine that 
culture change action plan. We will look at those points very 
closely. We will try to answer your question and address your 
concern about that because it is going to be absolutely 
essential, if culture is to change, that leadership get out 
front and also that leadership prioritize the 50-plus items on 
this culture change action plan.
    One of our concerns in looking at it is that there is 
currently no plan built into it for a prioritization of risk.
    Senator Manchin. Let me ask this question. Do you all know 
your dropout rate? What is your dropout rate?
    Admiral Helis. Sir, the graduation rate for 2016 was 84 
percent.
    Senator Manchin. So you are saying you have a 16 percent 
dropout rate.
    Admiral Helis. That is correct, Senator.
    Senator Manchin. The size of your academy is what? About 
930?
    Admiral Helis. Sir, presently, we have 879 midshipmen 
aboard. We had decreased enrollments for the class of 2017-2018 
because of barracks renovation.
    Senator Manchin. What is your capacity?
    Admiral Helis. Our normal capacity would be we would bring 
in about 280 a year, which we are back up to. So we expect the 
number to get back up to just over 1,000 next year.
    Senator Manchin. Okay. I know West Point is 4,300. The 
Naval Academy is about 4,600. The Air Force is about 4,000.
    Is your campus not large enough to handle more or basically 
you are not geared to handle more or people do not want to 
come?
    Admiral Helis. Senator, we do not have the space for much 
more than about 1,000 to 1,100 in terms of housing, meals, 
classrooms, faculty. That is the----
    Senator Manchin. I would say, really, with a smaller campus 
like that, you all should handle--I mean, to have the horrific 
problems you are having with sexual assaults, and then not even 
an atmosphere where they feel like they can go anywhere and 
report and get any type of treatment, and I would say their 
only resolve would be to leave. Since they do not want to get a 
blemish on their record, they are going to have to leave you 
all.
    And then they go and have to report why they would leave, 
if they want to get somewhere else in the educational system.
    It makes it extremely horrific on this family, especially 
when you think about how excited they were to come to you, to 
get that opportunity and then to end up that way. I just have 
no explanation to the families that go through this horrific 
experience. I am just sorry for it.
    Senator Collins. Thank you.
    Senator Hoeven.
    Senator Hoeven. Chairman Collins, Ranking Member Reed, and 
members of the committee, I want to thank both the chairman and 
vice chairman for calling this very important hearing to 
discuss this issue.
    Admiral, clearly, sexual assault and sexual harassment of 
any kind are completely unacceptable and obviously have no 
place in an institution of higher education or anywhere else in 
our society.
    You outlined in your testimony a number of approaches that 
you are implementing to eliminate sexual assault and harassment 
at the U.S. Merchant Marine.
    Particularly in listening to the Senator from West 
Virginia's questions and comments, how do you feel your efforts 
are progressing? Assess the progress that you are making and 
specifically where you need to improve and how you can improve.
    Admiral Helis. Senator, the bottom line and assessment is 
the frequency of sexual assault and sexual harassment, and that 
number is not moving, so we are not making progress there. That 
is the bottom line to this. It has to be result-oriented.
    In terms of how we are moving forward, to go back 
historically, we started off in 2012 trying to build a program 
modeled off of the other Federal service academies in terms of 
reporting procedures, trainings provided, and so on. And we 
anticipated that those procedures would begin to see movement 
in the needle, an increase in reports and a reduction in 
incidents. We did not see that occurring.
    At that point, we had to ask ourselves the question, okay, 
why is it that steps that have yielded success at the other 
academies are not yielding the same results here? What is 
different? And our analysis and that of others is that the main 
difference in our program is the Sea Year, where the midshipmen 
are away for campus for half of their second and third years, a 
total of a year.
    And then it becomes a question of, okay, how does that, in 
turn, influence what goes on on campus, what occurs on campus? 
And we can cite again from our advisory board, from the Middle 
States Commission, from the LMI study, and from our own 
encounters with midshipmen in discussions that Sea Year has an 
effect on midshipmen when they come back to campus. They are 
exposed in some cases to behaviors and values that are contrary 
to what occurs at the academy, and those trickle back to the 
academy and feed the culture of the institution.
    That is something that we came to recognize in 2016. That 
ultimately led to the stand-down from Sea Year on commercial 
vessels, the formation of the Shipboard Climate Compliance 
Team, the establishment of first the increasing of awareness 
within the industry of the issue and establishing best 
practices to improve the climate and the atmosphere at sea with 
the belief that if that is in fact, one, contributing to the 
problem, and it is one thing that we have not been addressing, 
that will, again, start to move the needle.
    One thing that we can say that is positive besides 
specifically addressing the Sea Year is that the Sea Year 
stand-down has increased the attention and awareness of the 
issue across the academy and across the industry.
    Again, those, we feel, are going to have a positive effect 
in the future.
    Senator Hoeven. Talk about the support you provide victims 
once a sexual assault or harassment has been identified.
    Admiral Helis. Senator, for a sexual assault victim, once 
the report has been filed with the victim advocate, part of the 
process is for the victim advocate to assess where the victim 
is, to make sure the victim is fully aware of all the resources 
that are available, to provide the victim not just access but 
what we refer to as a warm handoff, actually taking the person 
to the resources that they need available, whether it is health 
services, whether it is counseling, whether we need to effect a 
relocation or a no-contact order between the victim and the 
assailant.
    Again, all of these are laid out for the victim, and it is 
the responsibility of the victim advocate for, again, what we 
refer to as a warm handoff, not, ``Well, this is the office you 
go to or the number you call,'' but actually taking the victim 
to where the victim needs to go to receive the appropriate 
support services.
    Senator Hoeven. And then you have follow-up procedures to 
make sure that that is getting done and they are getting the 
help that they need?
    Admiral Helis. Yes, sir. The particular victim advocate who 
is managing the case has responsibility to follow up routinely 
with midshipmen, with the victims. I routinely check with the 
sexual assault office and say, okay, what about the victim?
    And again, for a restricted report, we will have some 
shorthand we will use to refer to how is this victim doing, 
have you been in contact?
    So we do routinely--I do routinely follow up with the 
victim advocates on their progress on the cases.
    Senator Collins. Thank you, Senator.
    Senator Murphy.
    Senator Murphy. Thank you, Madam Chairman.
    Thank you all for being here today. A lot of my questions 
have been covered, so maybe we can drill down a little more 
specifically on a few more.
    We have been talking about the attitude of staff, so I 
maybe want to put a finer point on it. The 2016 LMI report 
found that the academy staff was ``not able to speak with one 
voice on this issue.'' And it cited claims by faculty that this 
really was not an issue on campus or that it simply was not 
their job to address it.
    So understanding all the progress you still have to make, 
can you report, at the very least--I would be interested to 
hear your thoughts as well, Mr. Scovel--that there is unanimity 
among staff today that, A, this is a problem; and, B, that it 
is everyone's responsibility on campus to play a part in 
solving it?
    Admiral Helis. Senator, I appreciate the question.
    Again, one of the key barriers we have that we have to 
address with this is that simple denial that there is a 
problem. I cannot believe that we have not expressed from the 
top down, from former Secretary Foxx on down, the clarity, with 
any greater clarity, that this is a problem, that it is 
unacceptable, that there are no bystanders in this, that 
everybody has a role to play in addressing the problem in terms 
of not just sexual assault and sexual harassment but the 
overall climate that creates the environment in which these 
crimes occur.
    So in my mind, there is no doubt that we have absolutely, 
clearly communicated this from the top down at all levels in 
repeated fora.
    Senator Murphy. Mr. Scovel.
    Mr. Scovel. Thank you, sir.
    I have direct anecdotal evidence to support the statement 
in the LMI study that you quoted earlier.
    As you know, we have had audit teams on campus several 
times. And in reviewing our requirements to complete our latest 
report, we contacted officials all across the campus. And 
specifically in the Office of Shipboard Training, our audit 
team was told by an official there that perhaps women just need 
to toughen up. That certainly got their attention. They brought 
it to my attention as we were preparing for this hearing.
    There certainly is not unanimity on the campus, certainly 
on the staff. I cannot speak to the faculty with direct 
evidence that I just cited before.
    But that is going to be a challenge for the academy 
leadership and for MARAD as they attempt to change a culture.
    They need to get attention. They need to prioritize 
actions. And they need to demonstrate accountability. The 
accountability piece has been not sufficiently addressed or 
perhaps even not addressed at all in terms of changing the 
culture.
    Senator Murphy. Admiral, some people's minds can be 
changed. Some people's attitudes can be adjusted. But others 
cannot. These are mature adults who have formed opinions that 
sometimes cannot be transformed.
    So would you agree that to the extent that this attitude 
remains among certain faculty or staff, that they should no 
longer be employees of the academy?
    Admiral Helis. Senator, I think we have to look at the 
behaviors of the staff and the faculty. Are they no longer 
tolerating sexist climates in the classroom, as an example? Are 
they no longer going to make remarks as were made to the 
inspector general 2 years ago?
    You know, it is a clear case where everybody clearly does 
have to get on board with this problem. Again, we are 
communicating it up and down.
    The Middle States accreditation report, for no other reason 
to address--this issue is so serious that every outside agency 
that has looked at it, the IG, not a complete outside agency, 
it is part of the department, but our advisory board, the 
Middle States accreditation team, all of this accumulation of 
evidence that occurred in 2016, it becomes, look, if we do not 
address this problem, we are at risk of losing accreditation, 
okay, which is basically we are at risk of being put out of 
business by our accreditors.
    So I think everybody is understanding that this is a 
serious issue that they have to address. They may disagree with 
our assessment. They may disagree with the numbers. There have 
certainly been countering voices that have said we are doing 
too much. We are overemphasizing the problem.
    My focus is going to be on these as steps that we as an 
institution need to take and expect every member to step up.
    Senator Murphy. Diversity of views is healthy on campuses, 
not with respect to sexual assaults, not with respect to a 
recognition that the problem exists.
    So I know that it is difficult sometimes to get into the 
minds of people who have not yet exhibited behaviors. But this 
is a place in which diversity of opinion should not be 
acceptable. This is a place in which individuals who are not 
committed to being part of the solution likely do not deserve 
to remain on campus.
    Could I ask one additional question?
    Senator Collins. Certainly.
    Senator Murphy. Can you just talk about what steps are 
being taken with respect to the stand-down of Sea Year to make 
sure that students who need to get through that process in 
order to ultimately get their licensure are able to complete 
those requirements?
    Admiral Helis. Senator, that is something to which we were 
very attentive.
    The people most immediately affected by the stand-down were 
going to be midshipmen who were going to, at least for 
immediate period of the stand-down, not be able to accumulate 
the days that they required for licensure. And so it became a 
priority to find ways to use Federal assets, which were 
approved, to ensure that midshipmen got their time at sea, a 
combination of Military Sealift Command and U.S. Navy vessels, 
training vessels, SOPs on training vessels, from the State 
maritime academies and the limited assets we have available at 
the academy.
    I am highly confident that no midshipman who was affected 
by the stand-down is going to have his or her graduation 
delayed for a lack of sea days. Now they may not all complete 
all of their sea days within the normal two sailing periods, 
but that is not unusual.
    We always have a few who, there may be a medical issue 
where they cannot get out to sea or we have to bring them back 
early. We have ways of making up sea days between the end of 
the sailing period and graduation. There are break periods 
where we can put them back out to sea. There are opportunities 
to put them out on weekends to collect the days in twos and 
threes.
    And from reviewing the records of the first group that was 
affected, where I looked at every record with the director of 
shipboard training, we were confident that they are all going 
to make it through.
    The second group just returned. We are still doing analysis 
of their records one by one.
    But I remain confident that the steps that have been taken 
with the support from Maritime Administration in terms of 
making assets and resources available, that we will get 
everybody to graduation on time.
    Senator Murphy. Thank you.
    Senator Collins. Thank you, Senator.
    I am going to follow up with Mr. Szabat on the question 
that you just raised. In fact, when I agreed you could do an 
extra question, little did I guess it would be my next 
question. But I do have an additional question that I want to 
ask.
    The suspension of the Sea Year was a drastic step for the 
academy to take and for Secretary Foxx to order, but in my 
view, it was justified, given the problems. I am very glad that 
it has resumed. I know that the academy went to great lengths 
to ensure there would not be a delay in graduation for 
students.
    But my concern is, what are we doing? What is MARAD doing 
to make sure that the reforms that are in place truly are 
taking hold? It is my understanding that there are five vessel 
operators who have been approved now. What are you requiring of 
them? And how are you ensuring compliance?
    Mr. Szabat. Senator, thank you for the question.
    There is a range of things. I will just highlight I think 
the most important, most significant actions that we are 
requiring from industry that they did not have to do before the 
Sea Year stand-down.
    There is a formal Sea Year mentorship program. Admiral 
Helis referred to that. So they are actually assigned duties 
now and official responsibilities for mentors. Officers on 
board the ship know when the midshipmen are assigned, that it 
is their duty to work with them and what their responsibilities 
are working with them.
    Each shipping company must issue an annual companywide 
message from a senior executive, so from the CEO, from the 
chairman of the company, expressing the company's policy of 
zero tolerance for sexual assault and sexual harassment.
    The companies to us, to our Shipboard Climate Compliance 
Team, have to certify that they have sexual assault and sexual 
harassment training that meets our criteria, and then they also 
have to submit what that training is.
    If I had to pick one thing that takes the most time for our 
SCCT teams to evaluate from the companies it is the submittal 
of what they are doing for training. A huge timesaver for us 
going forward is when the best practices are rolled out from 
the industry consortium that we are dealing with, so that any 
company, large or small, does not have to develop its own 
training program but knows that there is an industrywide 
standard for best practices and, as long as they meet that, 
that they will be in compliance with our standards.
    But in addition to the reports that they are required to 
submit, at the end of every sailing period--remember, our 
midshipmen go out to sea for 4 months or 8 months at a time 
during their two major tours for commercial Sea Year--the 
company has to debrief the midshipmen and report those 
debriefings to us.
    Separately, those midshipmen are debriefed also at the 
academy. So we are going to have ways to compare and contrast.
    And the final way that we have, to your question, Senator 
Collins, about ensuring that they are actually meeting these 
standards is that we will have audits. We will actually be 
auditing the companies, auditing the crews.
    There has been talk about sending people on unannounced 
visits on the ships, but the fact of the matter is it is really 
not a ship-by-ship issue because the crews and the officers 
change so often. This is company-by-company.
    The primary thing that we are going to have to go off of 
will be the feedback we get from our own midshipmen about which 
crews are well-trained, which officers are problems, and which 
ones are not. We will be taking that seriously and working back 
with the companies.
    Senator Collins. Thank you.
    Mr. Scovel, I was struck when you testified that four cases 
of sexual assault that you referred to the Justice Department 
were all declined. Now, I realize there may be factual reasons 
why that happened, but I have to say, if I were in the position 
of a young midshipman who had been sexually assaulted and knew 
that they were going to face retribution by their peers or 
maybe by others at the academy, and that it was likely that 
nothing would happen to the perpetrator, I would not report.
    And, indeed, I am wondering if that is part of the reason 
there is such a low level of making unrestricted reports that 
can lead to law enforcement action.
    What are your thoughts on that?
    Mr. Scovel. Thank you, Madam Chairman.
    That, indeed, may be known among victims, and it may be a 
reason for low levels of reporting or no reporting at all.
    To be clear, my office has a legal obligation, which we 
have executed in every single case, that when we have knowledge 
of criminal matters within the department, certainly at the 
Merchant Marine Academy, we will investigate those to the best 
of our ability, and we are required to present our findings to 
the Department of Justice for a prosecutive decision, and that 
is entirely up to them using their own standards.
    Case-by-case, it did come down, essentially, to the facts 
in each case, to include one where the victim himself or 
herself withdrew her statement of complaint. So, given that, of 
course, no reasonable prosecutor could go forward.
    Let me make a follow-on point to that, however. 
Notwithstanding whatever the Department of Justice may decide 
in each case, that is simply a judicial decision whether to 
prosecute. It does not bar the Merchant Marine Academy from 
investigating further or from taking action within their own 
administrative, non-judicial procedures against an alleged 
perpetrator.
    Senator Collins. Is that happening? Are individuals, in 
your judgment, being held accountable, disciplined, kicked out 
of the academy? Is action taken?
    Mr. Scovel. We do know one case that was declined for 
prosecution where the academy did take steps to dis-enroll and, 
in fact, disenrolled the offender. So, certainly, that is done.
    There are significant legal questions, which the academy 
and its counsel have to confront when they decide to go down 
the administrative route after a judicial declination of 
prosecution. The standard of proof or the burden of proof, 
whether it is to be--this is legal talk, of course--at the 
probable cause level or the clear and convincing level, that is 
a matter of much discussion in government and across campuses 
these days.
    The Department of Education and the administration both 
past and present have weighed in with different views on it. 
The academy's lawyers will have to develop their position, and 
I would recommend strongly that they do that in advance, 
knowing that these matters will continue. In other words, cases 
may be declined for prosecution. The ball will be back in the 
academy's court. That is not the time to decide what our legal 
requirements should be. They should have pretty much a protocol 
so that they can decide how to handle those appropriate cases.
    Admiral Helis may have information on other administrative 
actions that the academy has taken in another cases.
    Senator Collins. Admiral Helis, why don't you comment also 
before I turn over to Senator Reed.
    Admiral Helis. Thank you, Senator.
    I would say, first, that we have an outstanding working 
relationship with Inspector General Scovel's team. It is based 
in New York City. They are extraordinarily responsive. They are 
available to us 24/7. Whenever we pick up the phone on one of 
these issues, they are there. They are on campus.
    Our director of public security participates in the 
investigation as an observer. That allows us to parallel the 
administrative track. When they have completed the 
investigation, there is a cooperative process, I would say, 
that allows us to receive the investigation, to take 
administrative action, but not such that, we have not gotten 
there yet, that we would compromise a potential criminal case.
    But the cooperation is there. The two unrestricted reports 
that occurred in my tenure, in neither case were we able to get 
to a criminal prosecution. In both cases, I did take 
administrative action against the individuals, including, in 
one case, a disenrollment.
    Senator Collins. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much.
    Mr. Szabat, when I finished my question, we were turning to 
you about sanctions with respect to companies. You described to 
Senator Collins' question many of those.
    The ultimate response would be, what is the most 
significant thing you can do in terms of a company that is 
noncompliant and have you done that yet?
    Mr. Szabat. Senator, thank you for the question and for 
following up on this important issue.
    So as you pointed out in the discussion you had with 
Admiral Helis, within each company, within each ship, the 
captain is ultimately responsible. We do not have the legal 
authority, nor would we want to have the authority, to go after 
the captains of individual vessels. Our sanctions that we have 
are with the commercial companies themselves.
    So, if you will, there are several bites at this apple, if 
we want to have levers or incentives to make sure that the 
companies and individuals, the senior leaders of the companies, 
are following both the letter and the spirit of what we are 
trying to accomplish here with addressing sexual violence, 
coercive behaviors, at sea.
    So for us, if they do not meet the standards that they have 
signed up for, that they have volunteered and they have said 
these are the conditions that we are meeting, if we find that 
they are not meeting those standards, then we yank the company, 
the entire company from compliance.
    So in this case, hypothetically, if a midshipman comes back 
and reports, ``I had these problems with these crewmembers,'' 
and those reports are authenticated by investigations, and you 
talked about it could be the Coast Guard if it is done legally 
at sea, or it can be done by the companies, or we can do it 
internally once the midshipmen are back ashore, if we have any 
reason to believe that the company is not taking these issues 
seriously, has not addressed an issue with an officer or 
members of their crew who have inappropriately treated one of 
our midshipman, then our sanction, and it is a sanction that we 
would exercise, it is to yank that company from the program.
    And there are two issues with that. One is, of course--and 
these companies, not a single official of these companies was 
supportive of the Sea Year stand-down. They thought it was an 
overreaction. They did like the fact that we were doing it. But 
they all rallied around the idea that this was an opportunity 
for them to showcase what they are doing to address sexual 
assault and sexual harassment, and work cooperatively with us 
to do so.
    So no one wants to be singled out. There is that shame 
factor in the industry, if we call them out.
    Then secondly, the core group of the companies that 
participate in our program, these are companies in the Maritime 
Security Program. They get a $3.5 million a year, now 
authorized to a $5 million a year, per vessel subsidy, a 
stipend for participating in the program. They have to meet our 
standards to participate in that program.
    So if a company were to be found in default of this and was 
part of the Maritime Security Program, they could see their 
participation in the Maritime Security Program jeopardized as 
well.
    Senator Reed. Thank you very much.
    Let me just follow up with another question. We, I think 
appropriately, consider the Merchant Marine Academy on the same 
level as all of our other service academies, but an issue of 
filling these vacancies, particularly significant vacancies in 
the terms that we talked about, they are not on that same 
level. West Point, the Air Force Academy, Annapolis, they have 
all these positions filled. In fact, I think the 
superintendents would be raising holy cow if they were not.
    Have you brought this issue to the Secretary and said that 
this is such a critical item that these positions have to be 
filled immediately?
    Mr. Szabat. If we can give you a split answer on that, let 
me first speak for the Maritime Administration and then Admiral 
Helis can talk about the positions on campus themselves.
    But yes, not only has it been brought to the attention of 
Secretary Chao, but Secretary Chao has addressed that. We have 
already received exemptions from the hiring freeze for eight of 
our most critical positions at the academy, including all four 
of the sexual assault positions, keeping in mind this is 
building from a base of only a couple years ago we had one 
full-time sexual assault person. We are now four, and we are 
looking for, as Admiral Helis described earlier, a legal 
adviser as well.
    So the Secretary is aware. She has taken action.
    And, Admiral Heller, I am going to turn this over to you, 
but I do not know that it is fair to say that the other schools 
have not been affected by the hiring freeze.
    Admiral Helis. Sir, to what degree the other institutions 
have been affected.
    Senator Reed. Right.
    Admiral Helis. I can say that we have received exceptions. 
Of the four positions in the sexual assault program office, the 
senior coordinator has been filled since September by a 
mobilized Navy reservist who had been a company tactical 
officer for 2 years and then volunteered to stay a third year 
to get that office up and running. So she is aboard.
    We have made an offer and an offer has been accepted for 
one of the two educator victim advocates with an onboard date 
coming up.
    The second victim advocate position, we made an offer. It 
was not accepted. It is re-advertised.
    The sexual assault program manager, the position had to be 
re-scoped to a supervisory position. That position is currently 
advertised.
    Some other critical positions, the commandant's position, 
we are in the midst of interviews right now. I anticipate that 
we will be able to make a selection probably within the next 2 
weeks.
    The dean's position is advertised. It is open for 
application through the 14th of April. And I again anticipate 
that we will be able to make a selection by late spring or 
early summer.
    So we have received exceptions on these critical positions 
that were tied to the sexual assault program, and we are moving 
forward as expeditiously as we can to fill them.
    Senator Reed. Let me ask another question, Admiral. That is 
that, in the 2016 cultural assessment, they noted that your 
lack of authority to hire and fire faculty members goes to the 
issue of accountability. Do you need specific statutory 
authority to provide you with the authority to hire and fire 
people? You can talk until you are blue in the face, but if 
they still have the job after that, that is all you are doing.
    Admiral Helis. Senator, that is true. Again, that issue of 
hiring authority was also raised by the Middle States 
Commission. The Maritime Administration has recently delegated 
to the academy, to the superintendent, the full authority over 
personnel actions dealing with faculty members. So I have a 
full hiring authority, and I also have full authority in terms 
of disciplinary matters in accordance with Federal law and 
regulations.
    Senator Reed. Right.
    Just a final question, and that is, we have noticed--and 
this is not unique to the Merchant Marine Academy. This is a 
problem throughout the military, as you know, the retribution, 
retaliation, ostracism that goes on, et cetera.
    Just one aspect of this you might comment upon is you have 
a midshipman chain of command.
    Admiral Helis. Yes, sir. We do.
    Senator Reed. Are you using that aggressively to counter 
what is usually kind of informal and sometimes even nonverbal 
sort of conduct or communication that leads to this type of 
ostracism or retaliation?
    Admiral Helis. Yes, sir. There is a holding that we expect 
accountability for the regimental chain of command, the 
midshipmen chain of command, basically for policing their own 
ranks in terms of those behaviors. We continue to put an 
increased emphasis on it. If we were to sit the regimental 
commander or the executive officer down here, they would tell 
you the same.
    Within the regimental staff, we have a regimental sexual 
assault victim advocate who supervises, essentially, a program 
within the regiment led by midshipmen. We have a human 
relations officer. I think West Point a couple of years ago 
they refer to a respect officer chain, again, which is a 
separate chain with the head residing in the regimental staff.
    As Senator Collins noted, it is Sexual Assault Awareness 
Month. Most of the programming put together for this month was 
put together by the midshipmen, by the human relations 
officers, and the regimental victim advocate.
    Another area where we have seen great student involvement 
is from the athletics department. I would credit our athletics 
director with stepping up on this issue. The athletics 
department is sponsoring the It's On Us challenge campaign on 
campus, which is ongoing this month.
    So I would say midshipmen are beginning to step up. I think 
that the actions that we took over the last year to more 
clearly highlight the issues, particularly with the Sea Year 
stand-down, and with the LMI study, and with the findings from 
Middle States, it has not only increased awareness but I think 
that some midshipmen have found it empowering that they can 
step up.
    We certainly are not there yet, but I can see progress over 
the last year.
    Senator Reed. Madam Chairman, you have been very kind.
    One of the things, I think structural issues, problems, 
that you have is that, from the other service academies, when 
they deploy cadets for summer and midshipmen for summer 
training, they can do so so that individual females are not in 
environments with all men, basically. In fact, there is a 
conscious effort to do that.
    I know when the first females were integrated into 
submarines, it was consciously done so that there would be four 
to six enlisted plus four officers, not onesies and twosies.
    Can you do that in terms of the Sea Year, where these slots 
are one or two? Or do you consciously try to do that? Do you 
try to ensure that there are buddies, basically?
    Admiral Helis. Senator, when midshipmen deploy to sea, 
there are always at least two on a vessel, so they always have 
a buddy with them.
    Senator Reed. Okay.
    Admiral Helis. We do not prescribe that there is a specific 
it has to be two women or it has to be two men. It is 
essentially a preference, ``Midshipman, who do you want? Do you 
have a sea partner?'' Somebody that you know that you can 
trust, somebody from a team, somebody from a club, somebody 
from a class, from your hometown. But the first choice on sea 
partner is up to the two midshipmen of where we want to make 
this happen.
    Senator Reed. But you consciously do not--put individuals 
on a ship?
    Admiral Helis. We consciously do not--put one single 
individual on a ship. They all have a--we call it is sea 
partner. The Army--they have a battle buddy.
    Senator Reed. A battle buddy. I got it. Thank you.
    Mr. Scovel, thank you for your great service in many 
different capacities. Thank you, sir.
    Mr. Scovel. Thank you.
    Senator Reed. Thank you, Madam Chairman.
    Senator Collins. Thank you, Senator Reed.
    I just have a couple more questions before we adjourn.
    Admiral, has the academy faced problems with online sexual 
harassment? I am thinking of the horrific situation that the 
Marine Corps recently uncovered where there was a Facebook 
group that shared and distributed images of naked women in the 
corps. And the fact that the group reached something like 
30,000 individuals before an alarm was sounded tells us that 
there is a larger cultural problem that we are dealing with 
here.
    But has this been a problem at the academy?
    Admiral Helis. Senator, I appreciate the opportunity to 
talk on this issue.
    In my first couple years, we did have a couple incidents of 
what I would refer to as cyberbullying through use of Facebook. 
Yik Yak, the anonymous site, was particularly troublesome. Our 
then-commandant took a very aggressive approach to it. In some 
cases, he simply had the information technology department 
block Facebook and say: It is completely blocked. You are not 
going to get on Facebook for a couple days until this gets 
cleaned up, postings get taken down.
    That seemed to have a positive effect. We are not aware--I 
am not aware of any incidents that have occurred recently. We 
do make clear--and part of the training we have added is 
responsibility and social media responsible conduct.
    We are in the process of revising our harassment policy. It 
is a routine update this year, and we are going to be much more 
explicit in terms of conduct and behavior that is expected on 
social media.
    So we have seen some of it but not to the levels that you 
refer to.
    Senator Collins. Inspector General Scovel, my final 
question is for you.
    Back in 2014, after you completed one of your first reports 
on this problem of sexual harassment and assault, the then-
ranking member of this subcommittee, Patty Murray, and I met 
with you at length to go over your findings and your 
recommendations. So where are we today compared to where we 
were when we met in 2014?
    Mr. Scovel. Some progress has been achieved, challenges 
remain, as every respectable inspector general would say, I 
think.
    When I say progress, I mean the academy, the department, 
our office, the entire Congress, has now recognized that it is 
a culture problem at the Merchant Marine Academy. It is not 
simply a programmatic deficiency with regard to meeting 
statutory or regulatory requirements.
    The academy, to its credit, in its 2015 action plan 
acknowledged that as its first priority it needed to confront a 
pervasive sexist culture on campus. Now it did not go on then 
to use the magic words of ``so now we must embark on culture 
change,'' but they did embed in its action plan a number of 
specific items that, had they been completed, would have led 
them somewhat down the path to true culture change.
    They have now confronted that. The LMI study as well as 
work of our office, the attention of this committee and others, 
has brought that squarely to their attention.
    I wish I could say they have bottomed out. We will see. The 
ultimate test will be what the survey data reveal. There has 
been an increase, as you noted, in some reporting, increase in 
females and males who have reported encountering assault and 
harassment, and that is disturbing.
    But encouraging, there has also been a minor increase in 
the number of actual reports, contemporaneous incident reports, 
which I see as a positive sign. That is a trend that I would 
hope to see continue. We will have to examine the next survey 
results to see how it goes.
    If I may, when we talk about culture change, and the point 
I was making earlier in the hearing was an ambitious 50-plus 
point culture change action plan is most commendable. However, 
for a small institution like the academy with limited 
resources, prioritization of those actions will be absolutely 
essential. We are talking about a nautical setting, so if I use 
the term ``this school cannot to boil the ocean,'' I think 
everybody will understand what I mean.
    They will have to determine priorities among those action 
items, allocate resources and follow through with leadership at 
all levels in order to ensure success.
    Senator Collins. Thank you.
    Let me end the hearing by quoting from a recent press 
article that appeared in January that quoted a recent alumnus. 
And here is what she said that I find so disturbing. ``There is 
just such a lack of respect for women there. Once we stepped 
through those gates, we were no longer human. We were just 
objects for them to conquer.''
    It is simply unacceptable that any midshipman would feel 
that way and would feel such a lack of respect. But here is 
what is even more alarming, according to this news story. This 
alumni's account of sexual harassment and unwanted advances was 
handed over to the alleged perpetrator by the response 
coordinator, if, in fact, this story is accurate.
    So it seems to me that that summarizes the challenge that 
we have. And I believe that everyone sitting here before us is 
committed to that challenge.
    But I want to remind everyone of what the inspector general 
said, and that is that there is still a third of the 
recommendations that have not been implemented, that a 50-point 
action plan may not be as effective as a 12-point action plan 
that everybody is committed to and works hard to achieve.
    And I just do not want to be sitting here next year and the 
year after and reading reports with the same alarming 
statistics. We simply have to get a handle on this problem and 
move to a zero-tolerance environment.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Collins. Do you have any final comments? This 
hearing record will remain open until next Friday, April 14.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Hon. Joel Szabat
              Questions Submitted by Senator Steve Daines
    Question. Thank you for testifying on this very important subject. 
Every instance of sexual assault is horrific and the frequency with 
which it occurs in our society is abhorrent. Reports of sexual assault 
by civilian mariners on students assigned to commercial ships during 
their ``Sea Year'' illustrates that this problem is not unique to a 
military environment.
    The Merchant Marine Academy is distinct amongst its sister 
academies because students effectively spend 3 years in a structured, 
military-style environment; and 1 year abroad in a commercial, maritime 
environment. While I am encouraged that you have taken decisive action 
to stop sexual assault on campus within your regimental program, I'm 
concerned that meaningful change across industry will take much longer.
    The Merchant Marine Academy is distinct amongst its sister 
academies because students effectively spend 3 years in a structured, 
military-style environment; and 1 year abroad in a commercial, maritime 
environment. The Maritime Administration's ``Sea Year Eligibility 
Criteria'' is a positive step to incentivize a culture shift within the 
maritime industry. From your perspective, what other opportunities 
exist to influence a culture shift across the entire U.S.-flag fleet 
through Congressional oversight or Executive action?
    Answer. The Maritime Administration (MARAD) is committed to ongoing 
engagement with maritime industry and labor to address sexual assault, 
sexual harassment, and other coercive behaviors onboard U.S.-flag 
vessels. In June 2016, MARAD hosted a ``Call-to-Action'' meeting with 
more than 90 leaders from across the maritime industry to address 
concerns about the shipboard environment. In response, a consortium of 
fourteen maritime companies drove an effort to address issues that led 
to the U.S. Merchant Marine Academy (USMMA or Academy) Sea Year stand 
down. These companies offered a proposal at the Call-to-Action to 
address sexual assault and sexual harassment at sea. Based on this 
proposal and recommendations from a cultural audit conducted last Fall 
at the Academy, MARAD developed standards that each company must meet 
to be eligible to participate in Sea Year. As a result of this 
collaboration, MARAD, industry, and the unions have reviewed and 
revised their policies as necessary with the focus on ensuring the 
safety of crew, including Midshipmen. MARAD will continue this 
engagement with industry as we perform on-site audits with companies to 
ensure Sea Year eligibility requirements are being met. MARAD also will 
receive feedback from companies as we review the Sea Year eligibility 
requirements annually and modify policies and requirements as we learn 
more.
    In addition, MARAD entered into an agreement with the Ship 
Operations Cooperative Program (SOCP) to develop computer-based assault 
prevention and response training designed for U.S.- flag vessel 
crewmembers. SOCP is a trade association made up of maritime industry 
professionals whose objective is to improve the safety, productivity, 
efficiency, security, and environmental performance of U.S. vessel 
operations. MARAD is also working with SOCP on ``best practices'' for 
maritime company management training this summer. These efforts will 
especially benefit smaller companies without the resources to develop 
robust programs of their own.
    Finally, as required by the fiscal year 2017 National Defense 
Authorization Act (fiscal year 2017 NDAA), MARAD is chairing a working 
group of representatives from industry, labor, the State Maritime 
Academies, and the USMMA to recommend additional improvements in 
addressing sexual assault prevention and response. MARAD established 
this working group in January 2017 and members have begun their work. A 
report on the working group's findings is due to Congress in September 
2017.
          Questions Submitted by Senator Senator Patty Murray
    Question. As my colleagues have already discussed, and as I 
outlined to Secretary Chao in a March 21st letter, I remain deeply 
concerned with the prevalence of sexual assault and sexual harassment 
at the U.S. Merchant Marine Academy (Academy). This is an issue the 
Academy has been trying to address for almost 10 years, but the most 
recently available Service Academy Gender Relations Survey still found 
17.1 percent of women and 2 percent of men have experienced sexual 
assault and 63 percent of women and 11 percent of men have experienced 
sexual harassment.
    While I appreciate the actions taken to date by the U.S. Department 
of Transportation, Maritime Administration, and Academy to institute 
change, it's clear that problems of sexual violence continue. Executive 
Director Szabat, is the Maritime Administration committed to 
implementing the recommendations from the recently completed Culture 
Audit?
    Answer. Yes. The contractor hired to do the audit, Logistics 
Management Institute (LMI), delivered its report in December 2016, 
identifying the root causes of improper behavior and recommending both 
short-term and long-term corrective actions to address these issues. 
MARAD and the Academy have already begun taking steps to implement the 
recommendations made in the report.
    Question. What oversight are you conducting to ensure immediate and 
near-term actions in the Academy's Action Plan are completed?
    Answer. MARAD is in continuous dialog with Academy leadership and 
throughout the Academy community to ensure that implementation takes 
place. Leadership from MARAD and the Academy have weekly meetings to 
monitor progress in implementing the Action Plan. In addition, the 
recently chartered Maritime Education and Training Executive Review 
Board (METERB) will provide oversight as policies are developed and 
resource needs are identified to fully implement the action plan. Its 
members are all senior executives within MARAD who answer to the 
Executive Director and oversee resources allocated for the operation 
and maintenance of the Academy. The METERB was established to provide 
governance, oversight strategic direction, and advocacy for the 
Academy. Its role is to make policy recommendations to the Maritime 
Administrator and provide strategic guidance to the Academy 
Superintendent.
    Question. Further, what are you doing to ensure these initial steps 
are having the necessary and desired effect?
    Answer. We will continue to assess the success of our programs 
through what we learn about Midshipmen experiences from surveys of 
Midshipmen, formal and informal focus groups, and listening sessions, 
and through tracking official of reports of sexual assault and 
harassment.
    In addition, the Shipboard Climate Compliance Team (SCCT) receives 
continuous feedback from the companies to consider improvements. The 
SCCT criteria will be reviewed annually and on-site audits will be 
performed by MARAD and the Academy onboard vessels and with companies. 
In addition, the Academy will receive feedback from Midshipmen 
following their Sea Year so problems can be identified and improvements 
to the Sea Year experience can be made.
    Question. Executive Direct Szabat, I appreciate the efforts the 
Maritime Administration has taken with industry and labor to ensure 
midshipmen have a safe and supportive environment in which to learn 
during Sea Year. In your written testimony you outlined efforts by the 
Shipboard Climate Compliance Team to establish new requirements for 
companies to meet in order to participate in the Sea Year training 
program.
    Can you discuss those requirements in more detail, including what 
best practices or guidelines the Maritime Administration provided to 
companies for use in their annual sexual assault and sexual harassment 
prevention training for crewmembers?
    Answer. In June 2016, MARAD hosted a ``Call-to-Action'' meeting 
with more than 90 leaders from across the maritime industry to address 
concerns about the shipboard environment. In response, a consortium of 
fourteen maritime companies offered a proposal at the Call-to-Action to 
address sexual assault and sexual harassment at sea. Building on this 
effort, MARAD formed the SCCT to work with industry partners in 
establishing stringent new requirements companies must meet in order to 
participate in Sea Year. In addition to input from maritime industry 
and labor, MARAD hired a sexual assault and sexual harassment 
prevention and response subject matter expert to advise the effort.
    MARAD also entered into an agreement with the SOCP to develop 
computer-based assault prevention and response training designed for 
U.S.-flag vessel crewmembers and is working with them to develop ``best 
practices'' for maritime company management training this summer. These 
efforts will especially benefit smaller companies without the resources 
to develop robust programs of their own.
    To be eligible to participate in Sea Year, companies must meet the 
following requirements:

    Company-Wide Zero Tolerance Message--Shipping company CEOs will 
issue an annual company-wide message outlining specific rules for the 
workplace, strongly stating that sexual assault and sexual harassment, 
including any retaliation based on a complaint, are unacceptable, and 
committing the company to eradicate such behavior and enforcing a zero- 
tolerance policy.
    Annual Sexual Assault and Sexual Harassment Prevention Training 
Requirement for Crew--Annual sexual assault and harassment prevention 
training will ensure that crewmembers clearly understand what 
constitutes sexual assault and sexual harassment, its negative impact, 
the importance of prevention, and the severe penalties for engaging in 
prohibited behavior or for failing to report an incident. All 
crewmembers will clearly understand their responsibility as 
supervisors, employees, witnesses, and bystanders. Crewmembers must 
complete this training prior to Midshipmen arriving on board, or within 
72 hours of signing-on, if Midshipmen are already onboard the vessel.
    Mentors with Enhanced Selection Criteria and Duties--Mentors for 
each ship play a crucial role in the success and development of cadets. 
Per enhanced mentor qualifications, a mentor must certify that he/she 
does not have any pending complaints or history of violations of any 
other company's Sexual Assault Sexual Harassment policies. The mentor 
must be of good character, and know, support, and advocate for the 
company's sexual assault sexual harassment prevention and response 
policies. Mentor duties include:

  --Helping Midshipmen understand company shipboard policies and 
        procedures, and their roles and responsibilities aboard the 
        ship;
  --Serving as a resource for Midshipmen while onboard;
  --Being readily available to Midshipmen and seeking to understand 
        each individual's concerns about their vessel assignment;
  --Guiding the Midshipmen in understanding shipboard protocol, sexual 
        assault and harassment prevention and response policies, and 
        expected code of conduct;
  --Supporting Midshipmen once they join the crew and helping them 
        transition from their academic learning environment to the 
        professional shipboard setting;
  --Encouraging the development of a well-rounded mariner;
  --Referring Midshipmen to other resources as needed, such as other 
        crewmembers aboard the vessel, company employees, or Academy 
        personnel; and
  --Participating in prescribed sexual assault and harassment 
        prevention and antidiscrimination training and serving as a 
        reporting mechanism for complaints of sexual misconduct.

    Verify Annual Sexual Assault and Sexual Assault Prevention and 
Response Training--Each company will provide MARAD documents describing 
company-specific training protocols; the company's anti-discrimination, 
harassment, retaliation and sexual misconduct policies, including 
complaint reporting policies and procedures; a description of the 
company's investigation process and enforcement procedures; and, a 
mechanism for verifying their understanding of the issue.
    Zero-Tolerance Policy Regarding Romantic or Sexual Relationships--
Companies will actively support the USMMA Sea Year Conduct policy for 
Midshipmen, which prohibits romantic or sexual relationships between 
Midshipmen and crewmembers, and the consumption of alcohol by 
Midshipmen under 21 years old. Companies will immediately report known 
Midshipmen violations to the USMMA. A violation of the USMMA Sea Year 
policy may result in counseling or punishment pursuant to the 
Midshipmen Regulations.
    MARAD Will Maintain a Record of all Relevant Company Policies--
Companies will submit all relevant policies and documentation to MARAD, 
and MARAD will verify compliance annually. Required documentation 
includes, but is not limited to, sexual assault and harassment 
prevention and response policies; a description of company's complaint 
reporting process and procedures; policies related to confidentiality, 
enforcement, and retaliation and investigation procedures; and, the 
location of sexual misconduct prevention policies onboard the vessel.
    Company Debrief--Currently, both Midshipmen and the Vessel Masters 
evaluating them provide a report to the USMMA upon completion of an 
individual's Sea Year training. In addition to these reports, the new 
criteria require the company to provide the Academy a sexual assault 
and sexual harassment debrief at the completion of the Midshipmen's Sea 
Year time with the company. The debrief provides the company an 
opportunity to specifically addresses issues and note any concern or 
need for improvements.
    Question. Specifically, how has the Maritime Administration 
developed and deemed these training programs to be the best possible 
programs to achieve these critical goals?
    Answer. In addition to MARAD employees familiar with life at sea, 
the SCCT includes civil rights experts, including a workplace sexual 
discrimination prevention and response subject matter expert, who 
helped establish the criteria companies must meet to be Sea Year 
eligible. These experts were each involved in reviewing company 
processes and procedures for reporting and investigating complaints, 
enforcement policies, crew training, and development of the 
questionnaire that will be used to seek feedback from companies who 
take Midshipman on board during Sea Year. They will continue to be 
involved as we receive feedback and review Sea Year policies annually.
    The best chance for success in changing the culture onboard vessels 
is for maritime industry and labor to lead the effort, and they have 
stepped up to take on this challenge. As noted above, MARAD has entered 
into an agreement with the SOCP to develop computer-based training as 
well as best practices for all companies providing training to 
Midshipmen. This approach allows uniformity in the content of the 
training, while allowing it to be adaptable to meet the needs of 
companies of all sizes. Addressing these issues will be an ongoing 
effort and continued improvements will likely be needed. Feedback from 
Midshipmen and the companies participating in Sea Year will inform what 
changes need to be made going forward.
    Question. The addition of special training sessions for midshipmen 
prior to departure for Sea Year and ensuring companies adhere to strong 
zero tolerance policies for sexual assault and sexual harassment are an 
important first step. But what resources and protections are available 
to midshipmen when sexual violence does happen while out at Sea Year?
    Answer. Before they leave for Sea Year, Midshipmen are informed 
that they have several options for reporting a sexual assault incident. 
They can report it up their chain-of-command on the vessel, back to the 
Academy-- using code words if necessary, or directly to the U.S. Coast 
Guard (USCG). All unrestricted reports would be forwarded to USCG 
Investigative Service (CGIS) for investigation. All reports, restricted 
or unrestricted, would result in contact made by the Academy SARC to 
ensure the Midshipman is safe and receives the support he or she needs, 
including making arrangements to be removed from the vessel.
    If the vessel operator is notified of an unrestricted report, the 
company will conduct and investigation. The investigation would 
maintain the Midshipman's confidentiality to the extent practical, and 
the company would protect the victim from retaliation as part of their 
policy in meeting the SCCT criteria. As with any injury at sea, the 
vessels carry medical equipment, and a person certified to administer 
triage.
    If a person needs medical assistance as a result of an assault, the 
designated person in charge for medical (usually the Chief Mate) will 
provide assistance. The designated person in charge for providing 
medical is required by USCG Navigation and Vessel Inspection Circular 
No. 02 04, dated December 19, 2003, to present documentation 
demonstrating competence as part of the Standards of Training, 
Certification and Watchkeeping for Seafarers. Additionally, vessels 
typically have reach-back capability for services to provide medical 
advice while at-sea.
    Administering a rape kit in a timely manner can produce critical 
evidence for an unrestricted report investigation. As a result, the 
Academy will work closely with the company and CGIS or NCIS to 
facilitate such evidence collection. Rape kits are not required to be 
carried onboard as part of the medical supplies because they must be 
administered by trained and qualified personnel to ensure useful and 
admissible evidence results. The Academy is exploring options to make 
it easier for Midshipmen to communicate back to Academy when at sea. 
The Academy will be testing portable GPS texting devices to see how 
they work at sea. The goal is to send two devices out with the next 
group of Sea Year Midshipmen.
    Question. I remain deeply concerned that there is a gap in the 
services the Academy provides midshipmen while out at sea, especially 
in the case of sexual assault. The U.S. Department of Defense provides 
its service members with the ``Safe Helpline'' and the Department of 
State has made an app--``PC Saves Helpline''--available to its Peace 
Corps volunteers, both of which are operated by RAINN, the Rape, Abuse 
& Incest National Network. These tools provide specialized support and 
information to individuals affected by sexual assault. For example, the 
Safe Helpline is available worldwide, providing crisis response and 
information, and connecting survivors to resources.
    Executive Director Szabat, what is preventing the Maritime 
Administration from offering a similar helpline to midshipmen on Sea 
Year?
    Answer. The Academy has a 24/7 hotline phone that is staffed by 
victim advocates. In addition, the Academy has a Memorandum of 
Agreement with the local rape crisis center (The Safe Center), which 
provides backup coverage for the Academy's 24/7 hotline. To date, the 
DoD's current contracting arrangement with Rape Assault Incest National 
Network (RAINN) does not permit the Academy access to the DoD Safe 
Helpline. We have been told that the primary issue with gaining access 
is that Academy Midshipmen, unlike cadets at other service academies, 
are not DoD or Department of Homeland Security employees and thus our 
people are out of the current contract's scope. The Academy has been in 
discussions with RAINN about contracting with them to use their 
national hotline.
    Question. Can you report back to this Subcommittee on what 
regulatory, legislative, or fiscal barriers would prevent the Maritime 
Administration or Academy from providing midshipmen additional tools 
while at Sea Year within 60 days?
    Answer. Yes, we are assessing what additional resources or 
authorities may be needed to ensure Midshipmen safety during Sea Year.
    Question. Finally, I need to address President Trump's fiscal year 
2018 budget blueprint. A budget is a statement of priorities, and a 13 
percent cut to the U.S. Department of Transportation is a direct attack 
on our nation's growing infrastructure needs, workers, families, and 
the middle class. The Maritime Administration already has a slim 
budget, and serves a critical role in supporting our national security 
and economy.
    Executive Direct Szabat, will the more detailed budget delivered to 
Congress in May include sufficient funding to continue the Maritime 
Administration's mission?
    Answer. We are confident it will sufficiently address funding 
requirements to support MARAD's mission to strengthen the U.S. marine 
transportation system including infrastructure, industry, and labor to 
meet the economic and security needs of the Nation.
    Question. And just as importantly will it include the necessary 
funding to support the Academy's efforts to implement real cultural 
changes on sexual assault and sexual harassment?
    Answer. Yes, the Academy currently faces a number of unique 
challenges, most importantly fighting for real cultural change. The 
detailed fiscal year 2018 President's Budget request for the Academy 
will continue to support the highest standards of excellence in 
education for the Midshipmen, including continuing efforts to implement 
cultural changes that address sexual assault and sexual harassment and 
specific actions for the prevention of such incidents.
            Question Submitted by Senator Christopher Murphy
    Question. At the hearing I noted that I had heard from numerous 
parents of USMMA students across Connecticut about the Sea Year 
suspension. These parents want their children to be safe, and they also 
want their children to get the education they were promised when they 
committed to USMMA.
    Can you detail the steps MARAD and USMMA will take to ensure 
students affected by Sea Year stand down will meet their Sea Year 
requirements and graduate on time?
    Answer. No midshipman who was affected by this stand down is going 
to have his or her graduation delayed because of the stand down. The 
Academy can ensure they will all get the necessary sea days prior to 
graduation.
                                 ______
                                 
            Questions Submitted to Rear Admiral James Helis
              Questions Submitted by Senator Steve Daines
    Question. Thank you for testifying on this very important subject. 
Every instance of sexual assault is horrific and the frequency with 
which it occurs in our society is abhorrent. Reports of sexual assault 
by civilian mariners on students assigned to commercial ships during 
their ``Sea Year'' illustrates that this problem is not unique to a 
military environment. The Merchant Marine Academy is distinct amongst 
its sister academies because students effectively spend three years in 
a structured, military-style environment; and one year abroad in a 
commercial, maritime environment. While I am encouraged that you have 
taken decisive action to stop sexual assault on campus within your 
regimental program, I'm concerned that meaningful change across 
industry will take much longer. Until meaningful change takes place 
across the industry, what safeguards are in place now for students who 
become victims while at sea hundreds of miles offshore?
    Answer. As part of Sea Year preparations, the U.S. Merchant Marine 
Academy (Academy or USMMA) provides a series of lectures and seminars 
to familiarize the Midshipmen with life at sea. These briefings cover 
all aspects of safety on board a vessel, including sexual assault and 
sexual harassment prevention and response.
    The Academy provides Midshipmen a range of reporting options in the 
event of an incident of sexual assault or harassment. For example, a 
Midshipman can make an unrestricted report of an incident through the 
ship's chain of command or directly to the company's designated person 
ashore who is available to address crew issues that may arise. In the 
event of a report, the company is obligated to conduct an internal 
investigation. In addition, the U.S. Coast Guard (USCG) is responsible 
for investigating if a crime has been committed aboard a U.S.-flag 
vessel.
    Alternatively, a Midshipman can make a restricted report\1\ by 
contacting the Academy's Sexual Assault Response Coordinator (SARC) or 
any of the Academy's faculty and staff who are trained as victim 
advocates. Midshipmen are provided with a code word prior to departing 
on Sea Year that they may use in a communication back to the Academy. 
If the code word is used, the Midshipman is removed from the vessel at 
the next available opportunity.
---------------------------------------------------------------------------
    \1\ A confidential report, also known as a restricted report, 
allows Midshipmen who are sexual assault victims to disclose, on a 
confidential basis, the details of their assault to specifically 
identified individuals at the Academy and receive medical treatment and 
counseling at a location of the victim's choice (on or off-campus), 
without triggering the official investigative process. Midshipmen who 
initially elect to make a restricted report can, at any time after 
their initial restricted report, decide to pursue unrestricted 
reporting, which will result in the initiation of criminal and 
administrative investigatory proceedings
---------------------------------------------------------------------------
    In addition, the Maritime Administration (MARAD) and the Academy 
have formalized the Sea Year mentorship program, including enhanced 
selection criteria. Each Midshipman is assigned an officer on the ship 
who is specifically designated as a mentor and who is an unrestricted 
reporting option should an incident of sexual assault or sexual 
harassment occur.
              Questions Submitted by Senator Patty Murray
    Question. As my colleagues have already discussed, and as I 
outlined to Secretary Chao in a March 21st letter, I remain deeply 
concerned with the prevalence of sexual assault and sexual harassment 
at the U.S. Merchant Marine Academy (Academy).
    This is an issue the Academy has been trying to address for almost 
10 years, but the most recently available Service Academy Gender 
Relations Survey still found 17.1 percent of women and 2 percent of men 
have experienced sexual assault and 63 percent of women and 11 percent 
of men have experienced sexual harassment.
    While I appreciate the actions taken to date by the U.S. Department 
of Transportation, Maritime Administration, and the Academy to 
institute change, it's clear that problems of sexual violence continue. 
Admiral Helis, is the Academy committed to implementing the 
recommendations from the recently completed Culture Audit?
    Answer. Yes. The contractor hired to do the audit, Logistics 
Management Institute (LMI), delivered its report in December 2016, 
identifying the root causes of improper behavior and recommending both 
short-term and long-term corrective actions to address these 
issues.MARAD and the Academy have already begun taking steps to 
implement the recommendations made in the report.
    Question. How are you prioritizing the more than 50 immediate and 
near-term actions in the Academy's Action Plan and ensuring that they 
are completed in Fiscal Year 2017?
    Answer. The action plan to address issues identified in the LMI 
report is comprehensive and aggressive. The entire Academy team is 
pursuing the items in the plan along parallel paths. We are building 
and aligning the Academy leadership and management team by filling key 
positions as discussed elsewhere in the record. The Sexual Assault 
Prevention and Response Office (SAPRO) should be fully staffed this 
summer. We have completed a new Sexual Assault Prevention and Response 
Framework for 2017-2021. Processes for credentialing shipping companies 
are in place. We are well into planning a campaign to transform the 
culture of the Academy and will formally begin the campaign prior to 
the admission of the class of 2021 this summer. The campaign will 
emphasize personal accountability and responsibility for preventing 
sexual assault and harassment, including bystanders' responsibility. 
During Sexual Assault Awareness Month in April, we emphasized these 
themes through a variety of events, including a day of awareness when 
classes were shortened so Midshipmen, staff, and faculty could attend a 
variety of seminars on sexual assault and by participating in existing 
campaigns focused on sexual assault prevention, including Green Dot 
(bystander intervention) and It's On Us (NCAA's campaign against 
assault) events.
    Immediate actions that are being taken to implement recommendations 
from the Action Plan include:

  --Expanding the Sexual Assault Response Coordinator (SARC) office to 
        a four-person Sexual Assault Prevention and Response Office 
        (SAPRO), with a SAPRO Program Manager/SARC (interviews to 
        commence shortly), two Victim Advocate/Prevention Educators 
        (one tentative offer accepted; interviews underway for the 
        other) and a Sea Year Coordinator (on board), and responsible 
        for overall program management and integration of the program 
        across all Academy stakeholders.
  --Building and aligning the Academy leadership and management team to 
        better address sexual assault and sexual harassment, including 
        filling key personnel positions and continuing to include the 
        SAPRO Program Manager/SARC on the leadership team.
  --Refining a multi-year sexual assault and sexual harassment 
        prevention and response campaign, including updating sexual 
        assault and sexual harassment policies and training models.
  --Enhancing policies and procedures against retaliation and reprisal 
        including training, reporting, responding to incidents, 
        investigation and supporting victims
  --Instilling a sense of personal responsibility for preventing and 
        addressing sexual assault, sexual harassment and retaliation at 
        all levels within the Academy
  --Building shared ownership among Academy, MARAD and industry, 
        including regularly engaging with industry in formal gatherings 
        such as the 2016 Call-to- Action.
  --Implementing the process for credentialing shipping companies for 
        participation in Sea Year.
  --More fully preparing and supporting Midshipmen in the Sea Year 
        program.
  --Establishing a robust, continual feedback process from Sea Year.

    Question. Further, what are you doing to ensure these initial steps 
are having the necessary and desired effect?
    Answer. We will continue to assess the success of our programs 
through what we learn about Midshipmen experiences from surveys of 
Midshipmen, formal and informal focus groups, and listening sessions, 
and through tracking official of reports of sexual assault and 
harassment.
    In addition, the Shipboard Climate Compliance Team (SCCT) receives 
has continuous feedback from the companies to consider improvements. 
The SCCT criteria will be reviewed annually and on-site audits will be 
performed by MARAD and the Academy onboard vessels and with companies. 
In addition, the Academy will receive feedback from Midshipmen 
following their Sea Year so problems can be identified and improvements 
to the Sea Year experience can be made.
    Question. A critical component in the Academy's Action Plan to 
address the recommendations from the Culture Audit is to build and 
align the Academy leadership and management team. This requires filling 
key leadership positions and establishing a fully-staffed Sexual 
Assault Prevention and Response Office with a Sexual Assault Response 
Coordinator and two Sexual Assault Response Coordinator Assistant 
positions. Prolonged vacancies in these positions would negatively 
impact the Academy's ability to make improvements to better protect 
midshipmen. I understand the Academy is currently seeking applications 
for two of the three positions and is in the final hiring stages for 
the third.
    Admiral Helis, can you commit to this Subcommittee that the office 
will be fully-staffed within three months?
    Answer. The first of two victim advocate/educators is due to start 
at the Academy in June and a Sea Year coordinator is already on board. 
We are presently conducting interviews for the second victim advocate/
educator and will begin interviews shortly for the Sexual Assault 
Prevention and Response Office director. We will fill those positions 
as soon as we are able to present offers to the selected candidates and 
they clear necessary background checks.
           Questions Submitted by Senator Christopher Murphy
    Question. Despite the high incidence of sexual assault and 
harassment at the United States Merchant Marine Academy (USMMA), the 
position of Sexual Assault Response Coordinator (SARC) at the Academy 
has been vacant since December 2016--well before the new 
administration's hiring freeze and well past when USMMA received a 
waiver from the hiring freeze in February 2017. This vacancy is 
especially concerning because the SARC can change campus culture, and 
campus cultural is cited as the primary reason that the level of formal 
reporting of sexual assault and harassment is so low even as the level 
of anonymous reporting of sexual assault and harassment is so high.
    Why didn't the Academy fill the SARC position in December 2016?
    Answer. The previous SARC departed USMMA at the end of December. At 
the time of her departure, a decision had been made to expand the SARC 
to a four-person Sexual Assault Prevention and Response Office (SAPRO). 
Under the new structure, the SARC will also act as the SAPRO Program 
Manager; therefore, the position description for the SARC needed to be 
updated to reflect these new duties prior to the position being 
advertised. In addition to the SARC, the SAPRO will have two Victim 
Advocate/Prevention Educators and a Sea Year Coordinator.
    While the hiring freeze initially affected the hiring process, the 
Academy received an exemption from the hiring freeze for several 
critical positions, including the SARC position, on February 21, 2017. 
There currently is an acting SARC filling this role until a permanent 
SARC is hired.
    Question. In light of USMMA's waiver and the federal hiring freeze 
being lifted, how will USMMA go about swiftly filling the SARC 
position?
    Answer. The Academy will begin interviews shortly for the SARC/
SAPRO director. In addition, the first of two victim advocate/educators 
is due to start at the Academy in June, a Sea Year coordinator is 
already on board, and we are presently conducting interviews for the 
second victim advocate/educator.
    Question. How will the end of the federal hiring freeze impact 
USMMA's efforts to fill other vacant positions? Please be specific 
about processes and which vacant positions USMMA needs to fill.
    Answer. DOT has granted the Academy the authority to hire for those 
positions which were identified for national security exceptions under 
the hiring freeze. The Academy also has permission to hire replacements 
when new vacancies come open. We are currently filling positions in 
priority using our normal hiring processes. In addition to the SAPRO 
positions identified above, the Academy is in the process of filling 
the following positions:

        * Academic Dean
        * Commandant
        * Music Director
        * Office of Human Resources Director
        * Special Victim Advocate/Attorney
        * Director of Information Technology
        * Information System Security Manager
        * Office of External Affairs Director
        * Sports Specialist/Head Basketball Coach
        * Electrical Engineering Instructor
        * Mechanical Engineering Instructor
        * Physics Laboratory Technician
        * Marine Machinery Mechanic
        * Project Manager
        * Wood Crafter Supervisor
        * Financial Management Clerk
        * Procurement Contract Specialist
        * Recruitment Specialist (2 positions)

    Question. At the hearing I noted that I had heard from numerous 
parents of USMMA students across Connecticut about the Sea Year 
suspension. These parents want their children to be safe, and they also 
want their children to get the education they were promised when they 
committed to USMMA.
    Can you detail the steps MARAD and USMMA will take to ensure 
students affected by Sea Year stand down will meet their Sea Year 
requirements and graduate on time?
    Answer. No midshipman who was affected by this stand down is going 
to have his or her graduation delayed because of the stand down. The 
Academy can ensure they will all get the necessary sea days prior to 
graduation.
               Questions Submitted by Senator Joe Manchin
    Question. How does the Academy educate and advise midshipmen on the 
differences between restricted and unrestricted reporting, in both 
process and outcome?
    Answer. Midshipmen first receive training during indoctrination. 
Plebe candidates receive training addressing sexual assault, sexual 
harassment, dating and domestic violence, stalking, and bystander 
intervention. During this training, Midshipmen are instructed on 
reporting procedures, including the differences between restricted and 
unrestricted reports, the process for making a report, and the services 
and remedies available to the victim once a report is made. All 
Midshipmen receive frequent awareness training throughout their time on 
campus on a variety of sexual assault and sexual harassment topics. 
This includes training on restricted and unrestricted reporting 
procedures. Sea Year Midshipmen receive pre-Sea Year training to 
prepare them for the challenges of Sea Year, including training on how 
to report and incident while at sea.
    Question. The LMI report suggested that there was a lack of 
effective communication from leadership at MMA. How are you working to 
build relationships with your midshipmen, your faculty, and your staff 
to improve the culture of the academy?
    Answer. In response to the LMI recommendations, the Academy has 
begun a ``culture campaign'' to improve communication among Academy 
leadership, faculty, staff and Midshipmen. This campaign is primarily 
driven by the Midshipmen in order to get their buy-in and provide them 
with a sense of ownership. As part of this campaign, we are 
establishing forums to offer an opportunity for Midshipmen to express 
their concerns, ideas, and suggestions. In addition, we have created a 
committee that has representation from Midshipmen, faculty, and staff 
across the Academy that will provide regular feedback to Academy 
leadership. The mission of the culture campaign is to develop and 
facilitate a campus-wide discussion of Academy core values resulting in 
a unified Academy community. The intent is for this to be a multi-year 
campaign that provides strategies and opportunities to improve campus 
climate.
    In addition to the campus-wide culture campaign, I personally meet 
with Midshipmen and faculty on a regular basis during the daily 
operations of the Academy. I have set times to meet with two small 
groups of Midshipmen each week and I meet frequently with faculty 
members, including with the faculty as a group each month.
    Question. The LMI report revealed that midshipmen and alumni were 
warned during plebe indoctrination that if they go to the on-campus 
health clinic, they could be medically disqualified. This includes 
victims of sexual assault. How are you combatting this perception that 
seeking medical treatment would disqualify a midshipman?
    Answer. The goal of the Department of Health Services is to ensure 
Midshipmen receive the health care they need to continue their training 
and education. We have embarked on an education program for both the 
Midshipmen and the staff at our health clinic to ensure that it is 
understood the aim is the well-being of Midshipmen. The Director of 
Health Services has instituted patient satisfaction surveys to assess 
Midshipmen perceptions of the health clinic. He is meeting weekly with 
Midshipmen to further assess Midshipmen attitudes and correct 
misperceptions. He is also working with the clinic staff to address how 
they can improve Midshipmen confidence that their priority is healing 
their illnesses and injuries so they can continue their education and 
training. Midshipmen officers leading indoctrination training this 
summer will be reminded that as leaders, they are responsible for the 
health and well-being of their subordinates, which includes availing 
themselves of health care. In the overwhelming majority of cases, 
Midshipmen are able to recover and graduate. Unfortunately, there will 
always be some Midshipmen who through injury or illness will be unable 
to continue at USMMA. Since 2013, only 17 Midshipmen have been 
disenrolled for medical reasons.
    Question. Each of the five service academies has taken different 
approaches to addressing the issue of sexual assault. Has MMA 
considered some of the programs used by other academies when addressing 
sexual assault?
    Answer. The USMMA program is modeled after the programs used in at 
the U.S. Military Service Academies, which make up the other four 
service academies. The USMMA has reviewed the policies of all of the 
service academies and is in regular communication with those schools 
regarding best practices. USMMA personnel are also involved in efforts 
across all institutions of higher education regarding response and 
prevention efforts. For example, in January 2017, USMMA staff 
participated in a summit hosted by the U.S. Air Force Academy in which 
all of the U.S. Military Service Academies came together to focus on 
accelerating progress in sexual assault and sexual harassment 
prevention, reporting, and retaliation efforts. Part of this summit 
included training for adopting and implementing parallel programming 
among the service academies for addressing sexual assault and sexual 
harassment prevention and response. There is no one-size-fits-all 
approach to addressing these issues, but the USMMA continues to 
evaluate and revise its program as appropriate to meet the needs of its 
Midshipmen.
    Question. To what extent does the relative size of MMA determine 
your approach to this issue?
    Answer. The size of the Academy does not affect the fundamentals of 
addressing the challenges of preventing and responding to sexual 
assault. It creates unique challenges. Every institute of higher 
education has unique challenges to addressing sexual assault and sexual 
harassment. The size of the Academy, the Sea Year training component, 
and the regimental system all present challenges. For example, it is 
difficult to move a victim or an accused out of a class or barracks 
given the Academy's small size. The Academy continues to explore ways 
to address issues these unique challenges.
    Question. Section 3510 of the National Defense Authorization Act 
for Fiscal Year 2017 requires a working group to report to Congress by 
September on efforts to further address the issue of sexual assault 
prevention and reporting. What is the current status of this working 
group?
    Answer. As required by the National Defense Authorization Act for 
Fiscal Year 2017 (fiscal year 2017 NDAA), MARAD convened the Sexual 
Assault Prevention and Response Working Group (SAPR WG) on January 31, 
2017. The SAPR WG is on track to produce a findings report to Congress 
by September 2017. The SAPR WG was divided into three sub-groups each 
with co-chairs and a balance of membership expertise to address Climate 
Awareness, Reporting and Response, and USMMA sea-year training, 
respectively. In total, the membership will address all seven focus 
areas sited in the fiscal year 2017 NDAA language. Concurrently, public 
input is being sought through a Federal Register Notice which was 
published May 1, 2017 under docket number MARAD-2017-0079.
    Question. With the resumption of Sea Year training, what tools and 
indicators are being used onboard to monitor the improvement of safe 
conditions and sexual assault reporting?
    Answer. MARAD and the Academy will seek continuous feedback from 
both Midshipmen and the companies participating in Sea Year so problems 
can be identified and improvements to the Sea year experience can be 
made. The Academy and shipping companies will survey Midshipmen at the 
end of their sailing period to assess shipboard climate and the 
implementation of the requirements companies must meet to be Sea Year 
Eligible. The Academy will continue to assess the success of our 
programs through what we learn about Midshipmen experiences from 
surveys of Midshipmen, formal and informal focus groups, and listening 
sessions, and through tracking official reports of sexual assault and 
harassment. The SCCT will receive continuous feedback from the 
companies to consider improvements. The SCCT criteria will be reviewed 
annually and on-site audits will be performed by MARAD and the Academy 
onboard vessels and with companies.
    Question. Can you please report the dropout rate at USMMA for the 
last five years; of those midshipmen that dropped out, how many filed 
unrestricted or restricted reports of sexual assault?
    Answer. For Midshipmen entering the Academy from 2011 through 2105, 
the overall attrition rate to date is 19 percent. No Midshipman who 
filed an unrestricted report has resigned or been disenrolled. As the 
identities of victims filing restricted reports are kept confidential, 
we cannot ascertain if any have left USMMA prior to graduation.
    Question. Which shipping companies in the past five years had a 
midshipman report an incident of sexual assault or harassment?
    Answer. Two formal reports (one restricted and one unrestricted) of 
sexual assault have been made by Midshipmen involving two companies. 
Ten complaints have been made involving eight companies, about which 
Midshipmen did not want to pursue a formal investigation or provided 
the information anonymously. The complaints involved inappropriate 
touching, comments, and/or unwanted attention. Identifying specific 
companies that have had a report or a complaint made by a Midshipman on 
board one of their vessels could jeopardize the privacy of the 
Midshipman who made the report or complaint. Because of the small 
number of Midshipmen assigned to vessels for Sea Year training, it 
would not be difficult to identify which Midshipman made the report.
    Question. Of all the commercial shipping companies that have taken 
midshipmen for training over the past five years, how many ships had a 
midshipman report sexual harassment or assault? Please also specify 
whether the incident involved a crewmember or another midshipman.
    Answer. Twelve ships have had Midshipmen who made a report 
(restricted or unrestricted) or complaint of sexual assault or sexual 
harassment. One unrestricted report of sexual assault was made 
involving a crewmember. One restricted report of sexual assault was 
made involving another Midshipman. We have less information about the 
remaining ten complaints, because they did not rise to the level of a 
reported incident, but came to the Academy's attention because a 
Midshipman contacted the Academy for advice or assistance. Seven of 
those complaints involved crewmembers and three complaints did not 
include information on whether the incident involved a crewmember or 
another Midshipman. Identifying specific vessels that have had a report 
of sexual assault or sexual harassment made by a Midshipman on board 
could jeopardize the privacy of the Midshipman who made the report. 
Because of the small number of Midshipmen assigned to vessels for Sea 
Year training, it would not be difficult to identify which Midshipman 
made the report.
                                 ______
                                 
                  Question Submitted to Calvin Scovel
               Question Submitted by Senator Patty Murray
    Question. Inspector General Scovel, first, thank you for your past 
work to review efforts by the U.S. Merchant Marine Academy (Academy) to 
address their ongoing issues with sexual assault and sexual harassment. 
In your testimony you indicate that by June 2017 you will start a new 
review of the Academy.
    While the National Defense Authorization Act for fiscal year 2017 
requires that your review focus on the Academy's Sexual Assault 
Prevention and Response program, I ask that you expand your review to 
encompass the entirety of the recently completed Culture Audit and the 
Academy's Action Plan. Further, I respectfully request that your review 
and subsequent recommendations help the Academy prioritize the more 
than 50 immediate and near-term actions in the Academy's Action Plan. 
Will you commit to taking these steps?
    Answer. Yes. My office has already planned to include the Culture 
Audit and Action Plan in the scope of our upcoming review of the 
Academy's Sexual Assault Prevention and Response program--mandated by 
the National Defense Authorization Act for fiscal year 2017. While the 
mandate did not specifically mention the culture plan, our review will 
assess the Academy's progress with all recent reports and associated 
recommendations.
    Furthermore, we continue to encourage the Academy to prioritize the 
more than 50 immediate and near-term actions items in its Action Plan. 
As part of our upcoming review, we will examine the Academy's process 
and procedures for prioritizing the many actions from recent reports, 
as well as how risk is factored into those decisions. It is important 
to note, however, that while we will bring attention to actions that 
might warrant greater attention and priority, it is ultimately the 
responsibility of the Department's leadership to establish the actual 
priorities and determine how they will be carried out within the 
appropriate milestones, deadlines, and applicable policies.

                          SUBCOMMITTEE RECESS

    Senator Collins. I want to thank all of our witnesses for 
participating. And this hearing is now adjourned.
    [Whereupon, at 11:39 a.m., Wednesday, April 5, the hearing 
was concluded and the subcommittee was recessed, to reconvene 
at a time subject to the call of the Chair.]
</pre></body></html>
